Report No. DODIG-2013-057               March 20, 2013




     Enterprise Business System Was Not Configured to
     Implement the U.S. Government Standard General
               Ledger at the Transaction Level
Additional Copies
To obtain additional copies of this report, visit the Department of Defense Inspector
General website at http://www.dodig.mil/pubs/index.cfm, or contact the Secondary
Reports Distribution Unit at auditnet@dodig.mil.


Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
BEA                           Business Enterprise Architecture
DCMO                          Deputy Chief Management Officer
DDRS                          Defense Departmental Reporting System
DFAS                          Defense Finance and Accounting Service
DLA                           Defense Logistics Agency
DoD FMR                       DoD Financial Management Regulation
DoD SCOA                      DoD Standard Chart of Accounts
EBS                           Enterprise Business System
ERP                           Enterprise Resource Planning
FACTS                         Federal Agency Centralized Trial-Balance System
FFMIA                         Federal Financial Management Improvement Act of 1996
GLAC                          General Ledger Account Code
GTAS                          Governmentwide Treasury Account Symbol
IRB                           Investment Review Board
OMB                           Office of Management and Budget
SCR                           System Change Request
SFIS                          Standard Financial Information Structure
U.S.C.                        United States Code
USD(C)/CFO                    Under Secretary of Defense (Comptroller)/Chief Financial
                                 Officer, DoD
USSGL                         U.S. Government Standard General Ledger
                                     INSPECTOR GENERAL
                                      DEPARTMENT OF DEFENSE
                                      4800 MARK CENTER DRIVE
                                   ALEXANDRIA, VIRGINIA 22350-1500




                                                                                   March 20, 2013

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                  CHIEF FINANCIAL OFFICER, DOD
               DEPUTY CHIEF MANAGEMENT OFFICER
               DIRECTOR, DEFENSE LOGISTICS AGENCY

SUBJECT: Enterprise Business System Was Not Configured to Implement the
         U.S. Government Standard General Ledger at the Transaction Level
         (Report No. DODIG-2013-057)

We are providing this final report for review and comment. We conducted this audit in response
to a congressional request. We reviewed the Defense Logistics Agency's implementation ofthe
DoD Standard Financial Information Structure within the Enterprise Business System. Despite
spending more than $2 billion, system program managers did not configure the system to fulfill
the functional capabilities needed to provide DoD managers with accurate and reliable financial
information at the transaction level. We considered management comments on a draft of this
repmt when preparing the final report.

DoD Directive 7650.3 requires that recommendations be resolved promptly. Comments from the
Deputy Chief Management Officer and the Deputy Chief Financial Officer were partially
responsive. Comments from the Deputy Director for Finance, Defense Logistics Agency, were
also partially responsive. Therefore, we request the Deputy Chief Financial Officer and Deputy
Chief Management Officer provide additional comments on Recommendation 1.c. In addition,
we request the Director, Defense Logistics Agency, provide additional comments on
Recommendation 2.c.(3). Please provide additional comments by April19, 2013.

If possible, send a Microsoft Word (.doc) file and portable document fonnat (.pdf) file
containing your comments to audfmr@dodig.mil. Portable document format (.pdf) copies of
yom comments must have the actual signature of the authorizing official for your organization.
We are unable to accept the /Signed/ symbol in place of the actual signature. If you arrange to
send classified comments electronically, you must send them over the SECRET Internet Protocol
Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8938 (DSN 664-8938).




                                             Richard B. Vasquez, CPA
                                             Acting Assistant Inspector General
                                             Financial Management and Reporting
Report No. DODIG-2013-057 (Project No. D2012-D000FI-0058.000)             March 20, 2013


              Results in Brief: Enterprise Business System
              Was Not Configured to Implement the U.S.
              Government Standard General Ledger at the
              Transaction Level
                                                       perform accounting functions by enhancing
What We Did                                            EBS functionality.
We determined whether the Defense Logistics
Agency (DLA) configured the Enterprise                 What We Recommend
Business System (EBS) to implement the U.S.
Government Standard General Ledger (USSGL)             We recommend that the Deputy Chief
at the transaction level using the Standard            Management Officer and Deputy Chief
Financial Information Structure (SFIS).                Financial Officer restrict funding until EBS
                                                       program managers demonstrate that EBS
                                                       contains all SFIS requirements. After DLA
What We Found                                          certifies SFIS compliance, DLA should conduct
EBS program managers did not configure the             a one-time validation to document that EBS
system to report USSGL financial data using the        program managers correctly implemented all
SFIS data standards. Specifically, they did not        SFIS requirements and then validate EBS after
properly implement 99 business rules, the SFIS         each subsequent SFIS update. We also
posting logic, and 41 attributes; establish and        recommend that DoD managers extend the
update EBS’s capability to record and report           validation processes to all DoD Enterprise
241 DoD reporting accounts; or establish EBS’s         Resource Planning systems and publish a
capability to generate trial balance data and          definitive listing of business rules needed for
report the data to financial systems. This             FY 2014 financial reporting. We recommend
occurred because DoD managers did not                  that the Director, DLA, develop a plan of action
initially establish the stringent validation and       and milestones to implement the most recent
certification procedures implementing SFIS             SFIS requirements, an alternate chart of
requirements correctly and DLA did not                 accounts, and the functionality to internally
prioritize its funding to ensure that EBS              crosswalk to the new alternate chart of accounts.
complied with the SFIS requirements. As a              The Director should also develop procedures to
result, DoD managers approved EBS funding              update EBS for changes in the DoD Standard
and did not require SFIS implementation before         Chart of Accounts.
developing and deploying additional EBS
capabilities. As of September 30, 2012, DLA            Management Comments and
obligated more than $2 billion to develop and
deploy an Enterprise Resource Planning system          Our Response
that was incapable of providing standardized           Comments from the DoD Deputy Chief
data for an auditable DoD Statement of                 Management Officer, Deputy Chief Financial
Budgetary Resources by FY 2014. In addition,           Officer, and the DLA Deputy Director were
DLA missed opportunities to reduce the more            generally responsive. However, we request that
than $30 million that it pays the Defense              they provide additional comments as noted in
Finance and Accounting Service annually to             the table on the back of this page.

                                                   i
Report No. DODIG-2013-057 (Project No. D2012-D000FI-0058.000)     March 20, 2013

Recommendations Table

         Management                     Recommendations     No Additional Comments
                                       Requiring Comment              Required
Deputy Chief Financial Officer   1.c                       1.a, 1.b, 1.d, 1.e
Deputy Chief Management          1.c                       1.a, 1.b, 1.d, 1.e
Officer
Director, Defense Logistics      2.c.(3)                   2.a, 2.b, 2.c.(1), 2.c.(2),
Agency                                                     2.c.(4), 2.d, 2.e, 2.f

Please provide comments by April 19, 2013.




                                             ii
Table of Contents

Introduction                                                                   1

      Objective                                                                1
      Background                                                               1
      Internal Controls Needed for SFIS Compliance                             4

Finding. EBS Did Not Meet SFIS Data Standards                                  5

      Defining Standard General Ledger Requirements                            5
      SFIS Business Rules and Posting Logic Implementation                     7
      EBS Program Managers Should Develop the Correct Charts of Accounts      13
      Limited Assurance of SFIS Implementation                                19
      Program Managers Needed to Address SFIS Requirements                    21
      Support of DoD Financial Statements                                     22
      Management Comments on the Finding and Our Response                     23
      Recommendations, Management Comments, and Our Response                  24

Appendixes

      A.   Scope and Methodology                                              31
      B.   Prior Coverage                                                     33
      C.   Congressional Request Letter                                       35
      D.   SFIS Business Rules Not Configured in EBS Correctly                36
      E.   Review of EBS Attributes                                           50
      F.   Missing DoD Standard Reporting Accounts                            52

Management Comments

      Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD   66
      Deputy Chief Management Officer                                         69
      Defense Logistics Agency                                                72
Introduction
Objective
Our objective was to determine whether the Defense Logistics Agency (DLA)
Enterprise Business System (EBS) fulfilled the functional capabilities needed to
generate timely, accurate, and reliable financial statements. Specifically, we
determined whether DLA Information Operations (J-6) and DLA Finance (J-8)
personnel (EBS program managers) configured the system to implement the
U.S. Government Standard General Ledger (USSGL) at the transaction level using the
Standard Financial Information Structure (SFIS). We conducted this audit as part of a
congressional request. Determining whether EBS implemented the USSGL using
SFIS did not require us to test financial data timeliness. Consequently, we did not
determine whether EBS provided DoD with timely financial information. See
Appendix A for our scope and methodology. See Appendix B for prior audit coverage
and Appendix C for a copy of the congressional request.

Background
To achieve auditable financial data, the Deputy Chief Management Officer developed
the Business Enterprise Architecture (BEA) to provide guidance to the Military
Departments and Defense agencies (DoD activities) for implementing:

    •   the Enterprise Resource Planning (ERP) systems necessary for subsuming and
        reengineering legacy business processes and systems, and
    •   SFIS to provide DoD data standardization.

EBS
In August 2000, DLA began developing its ERP system by initiating the Business
System Modernization. In FY 2007, DLA officials combined Business System
Modernization, which included Order Fulfillment, Supply and Demand Planning,
Procurement, Technical Quality, and Financial capabilities, with the Customer Service
Management and Product Data Management initiatives to develop the EBS core
system. EBS became the ERP system solution supporting DLA nonenergy commodity
activities.

EBS serves as DLA’s general ledger system of record for both general fund and
working capital fund operations. The Defense Finance and Accounting Service
(DFAS) uses EBS financial data to produce DLA financial statements, including the
Statement of Budgetary Resources. EBS financial data are also combined with data
from other DoD activities to produce the DoD Agency-wide financial statements.
DoD is required to produce an auditable Statement of Budgetary Resources by
FY 2014 for general fund operations. During FY 2012, DLA processed a majority of
the more than $53.9 billion in DoD budgetary authority using EBS.



                                          1
Table 1 identifies the components of the EBS core system.

                            Table 1. EBS Core System
        Core System                                            System Description and
        Components             Full Deployment Date
                                                                     Functions
                                                          Supply chain planning, ordering,
                                                          inventory, procurement, and
Business System                                           financial management for non-
Modernization                    September 2007           energy commodities
                                                          Customer accounts and profiles,
                                                          customer initiated inquiry and
Customer Service                                          feedback, customer satisfaction,
Management                          July 2007             and loyalty metrics
                                                          Technical document management,
                                                          document distribution, and data
Product Data Management            August 2007            visibility

DLA subsequently enhanced its EBS capabilities by adding SAP software that
supported DLA finance and accounting, real property, and inventory management
functions. In March 2014, DLA plans to complete EBS deployment by adding the
Energy Convergence enhancement to its energy commodity activities. Table 2
identifies the EBS enhancements.

           Table 2. EBS Enhancements Incorporated Into the Core System
     EBS Enhancements          Full Deployment Date         System Description and Functions

Enterprise Operational               May 2010             Extends accounting, financial, budget
Accounting System                                         management, and financial analysis with
                                                          SAP Public Sector finance component
Inventory Management and        Spiral 1 August 2009      Extends supply, storage, and distribution
Stock Positioning               Spiral 2 August 2011      from wholesale function into retail at
                                                          each Service's depot locations
Real Property                 Real Property Increment 1   Provides real property inventory
                                    October 2009          management, deficiency management,
                              Real Property Increment 2   facility project maintenance, and plant
                                   December 2011          maintenance
eProcurement                       December 2012          Enterprise procurement solution for
                                                          consumables, services, and depot-level
                                                          reparables
Energy Convergence                  March 2014            Modernizes supply chain management
                                                          for DLA energy commodities




                                          2
In March 2014, DLA will use EBS to manage nearly 5 million commodity items 1
within eight supply chains, 2 supporting 1,600 weapons systems, involving
114,000 requisitions and 11,200 contract actions daily. As of September 30, 2012,
DLA obligated more than $2 billion toward EBS implementation. As of January 2012,
EBS had over 11,000 users operating in 28 countries serving all DLA business areas.

Compliance With Public Laws
Public Law 104-208, “Federal Financial Management Improvement Act of 1996
(FFMIA),” September 1996, requires the substantial compliance of all financial
management systems with:
   • Federal financial management system requirements,
   • Federal accounting standards, and
   • USSGL at the transaction level.
Office of Management and Budget (OMB) Circular No. A-127 Revised, Financial
Management Systems, January 9, 2009, implements the FFMIA.

Section 2222, title 10, United States Code (U.S.C.), requires DoD to develop a DoD
BEA establishing an information infrastructure to comply with all Federal accounting,
financial management, and financial reporting requirements. The BEA infrastructure
should:

     •   routinely produce timely, accurate, and reliable financial information;
     •   integrate budget, accounting, and program information and systems; and
     •   provide a systematic measurement of performance.

The BEA requires DoD activities to apply uniform policies, procedures, data
standards, and system interface requirements.

Office of Secretary of Defense Responsibilities
The offices of the Deputy Chief Management Officer (DCMO) and the Under
Secretary of Defense (Comptroller)/Chief Financial Officer, DoD (USD[C]/CFO)
(DoD managers) are responsible for issuing policy and providing oversight of
DoD ERP systems data standardization. The DCMO is the senior official responsible
for organizing DoD business operations. The Office of DCMO is responsible for
developing and maintaining the DoD BEA and ensuring compliance with all
applicable laws and regulations, including FFMIA. The Deputy Secretary of Defense
chairs the Defense Business Systems Management Committee, established pursuant to
section 186, title 10, U.S.C. The Defense Business Systems Management Committee


1
  Commodity items include weapon systems, clothing and textiles, subsistence, medical supplies, and
energy products.
2
  Supply chain functions include requirement planning based on customer and DoD input, managing
procurement contracts with suppliers, moving products from source to customer while monitoring for
quality, and arranging for receipt and disbursement of funds.


                                                  3
and Investment Review Board (IRB) have the responsibility to approve EBS
milestones and investments and to assess whether EBS effectively implemented the
BEA requirements.

The USD(C)/CFO is responsible for DoD financial management systems. The Office
of the USD(C)/CFO is also responsible for issuing and monitoring DoD financial
management policy. The USD(C)/CFO mission is to improve business and financial
processes, controls, systems, and data to achieve accurate, reliable, and timely
financial and managerial information. DFAS is responsible for directing, approving,
and performing DoD finance and accounting services. DLA uses DFAS Columbus,
Ohio, to perform its accounting functions, including the processing, reporting, and
posting of DLA financial data to the Defense Departmental Reporting System
(DDRS). DDRS consolidates financial data received from DoD accounting systems to
produce the financial statements.

DLA Roles and Responsibilities
EBS program managers are responsible for EBS implementation. DLA Information
Operations served as the primary DLA activity responsible for providing information
technology support. DLA Information Operations included the EBS Program
Management Office, which was responsible for ensuring cost-effective EBS
implementation. DLA Finance established DLA financial core system competencies
and administered all DLA financial functions, including standard financial processes,
financial requirements, and performance targets. DLA Finance included the Financial
Compliance and Process Management Division (J-89), which was responsible for:

    •   overseeing financial compliance and auditability;
    •   managing the DLA input to the DoD Financial Improvement and Audit
        Readiness Plan;
    •   overseeing DLA financial statement audits; and
    •   coordinating and controlling financial process system changes, remedy tickets,
        and priorities.

Internal Controls Needed for SFIS Compliance
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal
control weaknesses in the implementation of USSGL and SFIS requirements in EBS.
Specifically, EBS program managers did not properly implement the DoD Standard
Chart of Accounts (DoD SCOA) and the SFIS business rules, posting logic, and
attributes needed for financial reporting. This occurred because DoD managers did
not initially establish the stringent validation and certification procedures for ensuring
that program managers implemented SFIS requirements correctly. We will provide a
copy of the report to the DoD and DLA senior officials responsible for internal
controls.


                                            4
Finding. EBS Did Not Meet SFIS Data
Standards
EBS program managers did not configure their ERP system to report USSGL financial
data using DoD SFIS data standards. Specifically, they did not:

    •   properly implement 99 of 222 SFIS business rules, the SFIS Transaction
        Library posting logic, and 41 of 55 SFIS attributes;
    •   correctly establish and update the system’s capability to record and report DoD
        SCOA financial data for 241 of 693 DoD reporting accounts; or
    •   establish the system’s capability to generate EBS trial balance data and report
        it to DDRS.

This occurred because DoD managers did not initially establish the stringent validation
and certification procedures for ensuring that program managers implemented
SFIS requirements correctly. In addition, EBS managers placed higher priorities on
deploying the core system and implementing additional functions rather than
configuring the ERP system to comply with SFIS data standards. As a result,
DoD managers approved EBS funding and required SFIS implementation before
developing and deploying additional EBS capabilities that could have ensured the
reporting of proper financial data.

As of September 30, 2012, DLA obligated more than $2 billion to develop and deploy
EBS without demonstrating that the system had the general ledger capability to
provide the data necessary to produce an auditable Statement of Budgetary Resources
by FY 2014. For example, EBS did not correctly report the financial attributes for
17 of 21 general ledger accounts reviewed; of which, 3 accounts affected the
Statement of Budgetary Resources. Additionally, opportunities existed for DLA to
reduce the more than $30 million that it pays annually to DFAS for accounting
functions, including the manual workarounds and data calls needed to develop and
report DLA trial balance data that EBS should be capable of recording at the
transaction level.

Defining Standard General Ledger Requirements
OMB Circular No. A-127 requires financial management systems to post the
appropriate general ledger account codes (GLACs) using the approved transaction
codes found in Treasury Financial Manual, volume 1, Supplement No. S2,
“U.S. Government Standard General Ledger” (the Supplement). The Supplement
requires the systems to post transactions using the appropriate four-digit GLACs 3 and



3
 Treasury Financial Manual, volume 1, Bulletin No. 2012-07, “Fiscal 2014 Implementation of the
Six-Digit U.S. Government Standard General Ledger (USSGL) Account Number Code Structure,”
August 8, 2012, requires agencies to implement a six-digit code structure in FY 2014.


                                                 5
all applicable domain values for the financial attributes. 4 The Supplement also defines
the individual transaction codes 5 used to record business events properly. DoD
Financial Management Regulation (DoD FMR), volume 1, “General Financial
Management Information, Systems, and Requirements,” provides DoD policy for
implementing FFMIA, USSGL, and SFIS requirements.

SFIS
The DoD BEA requires DoD activities to uniformly apply policies, procedures, data
standards, and system interfaces. The DoD BEA requires all systems processing
                                            financial transactions to use SFIS for
   DCMO personnel developed SFIS to         categorizing financial information
    provide DoD with a comprehensive        supporting DoD financial management
       data structure supporting its        and reporting functions. DCMO personnel
   budgeting, financial accounting, cost    developed SFIS to provide DoD with a
         accounting, performance            comprehensive data structure supporting
            measurements, and               its budgeting, financial accounting, cost
            external reporting.             accounting, performance measurements,
                                            and external reporting. On August 4,
2005, USD(C)/CFO personnel issued SFIS implementation policy. 6 DoD FMR,
volume 1, chapter 4, requires DoD activities to maintain their ERP systems and legacy
systems that interface with ERP systems consistent with SFIS requirements.

On August 13, 2007, the Acting Deputy Chief Financial Officer issued a memorandum
implementing the DoD SCOA in DoD ERP systems. DoD managers designed the
DoD SCOA to aggregate transactional activity into standard accounts and report the
account balances to DDRS and other accounting systems. The memorandum also
required that ERP systems have the capability to either independently record or
internally crosswalk 7 existing general ledger data to the SFIS format and report the
data directly to DDRS. DoD managers expected that proper SFIS implementation
would allow DoD activities to reduce ERP system customization, eliminate the need
for external crosswalking of account balances, provide a standard transaction-level
posting logic, and improve comparability of DoD financial data. DoD Business




4
  Attributes further describe a USSGL account to meet a specific reporting requirement. Domain values
are all of the possible valid choices within an attribute. For example, the attribute “Reimbursable Flag
Indicator” identifies the type of funding used in a transaction. The allowable domain values for this
attribute are D (Direct) and R (Reimbursable).
5
  A transaction code documents the basic standard posting logic for specific financial events across the
Federal Government.
6
  The Office of the Under Secretary of Defense (Comptroller) incorporated the policy in DoD FMR,
volume 1, chapter 4, “Standard Financial Information Structure (SFIS).”
7
  Crosswalking is a process used to convert account data from USSGL-noncompliant source trial
balances into the USSGL-compliant account structure.


                                                   6
Transformation Agency also issued a corresponding SFIS Transaction Library needed
to implement the SFIS requirements. 8

Compliance With SFIS Requirements Required for Obtaining
IRB Certification
On July 12, 2006, DoD established an IRB certification process to ensure that systems
such as EBS contained the configuration to implement the SFIS data standardization
requirements. 9 This data standardization was essential for achieving auditable
financial statements and providing DoD managers with the financial information
needed to make effective day-to-day budget and management decisions. The IRB
certification process required program managers to develop an ERP implementation
plan that not only included system compliance dates but also required program
managers to meet with the Enterprise Integration Team to determine whether the
system achieved, or when the system would achieve, SFIS compliance. The
evaluation should have included a data element assessment to ensure that the program
managers implemented the intended SFIS business rules, attribute values, and standard
configuration. Additionally, program managers should have demonstrated adherence
to the DoD SCOA and SFIS Transaction Library requirements before the IRB certified
funds for full system deployment.

SFIS Business Rules and Posting
Logic Implementation
EBS program managers did not implement the SFIS requirements necessary to
generate accurate and reliable financial information. Specifically, they did not apply
the SFIS business rules correctly to ensure that EBS accurately recorded the attribute
and corresponding domain values needed for reporting DoD financial information.
They also did not establish within EBS the SFIS posting logic needed to record
DLA business events accurately and consistently. At our request, in February 2012,
DCMO personnel initiated an assessment of EBS capabilities. However, as of
August 2012, EBS program managers were unable to demonstrate that they
implemented 99 of the 222 applicable SFIS requirements in the system.

Before our audit started, DCMO personnel and EBS program managers conducted
EBS assessments of only SFIS business rules. Personnel from the Office of the
Deputy Chief Financial Officer informed us that, in partnership with the Business
Transformation Agency, they recognized the need in FY 2010 to initiate a “pilot”
assessment program to evaluate ERP system compliance with USSGL and SFIS.
Therefore, in March 2010, DoD managers began assessing systems that the Financial
Management IRB identified as requiring SFIS compliance. DoD managers also stated
that the intention of the pilot program was to provide an initial review to establish a


8
  DoD dissolved the Business Transformation Agency in FY 2011 and transferred SFIS governance and
facilitation responsibilities to the Office of the DCMO.
9
  Investment Review Board Concept of Operations, July 12, 2006.


                                                7
baseline and determine the changes that each system required to become SFIS
compliant. EBS was one of six systems that participated in the pilot program. After
the pilot program was completed, Office of the USD(C)/CFO personnel approved the
process as a “help function” to assist ERP system program managers with meeting
SFIS compliance requirements and expanded the scope of the assessments.
Specifically, the BEA version 8.0 assessments that began in March 2011 included a
review of trial balance business rules, the DoD reporting chart of accounts,
implementation of the DoD SFIS posting logic, and applicable SFIS interfaces. DoD
managers further stated that this process evolved and improved over time but still
needed to be strengthened and more consistently applied. Table 3 shows the results of
the assessment as the assessment process transitioned from the pilot concept to the
more comprehensive BEA 8.0 assessment now in use. The emerging assessment
process required a more stringent validation process by Office of the Secretary of
Defense managers for a program manager to achieve compliance.

                  Table 3. SFIS Business Rules Assessments Results
SFIS Assessment        Assessment Performed       SFIS Compliancy      SFIS Non-Compliancy
Conducted                   (Fiscal Year)           (Percentage)           (Percentage)
BEA 7.0 “Pilot”                 2010                    75.36                  24.64
Assessment
BEA 8.0 DLA                     2011                    86.17                  13.83
Assessment
BEA 8.0 DCMO                    2012                    55.41                  44.59
Assessment


BEA 8.0 SFIS Business Rules Assessment
DCMO personnel developed the BEA 8.0 SFIS Compliance Checklist to measure
compliance with 66 SFIS attributes using 293 corresponding business rules. 10
BEA 8.0 identified and defined the attributes needed to support financial statements
and external reporting. Noncompliance with the business rules would result in the
inaccurate posting and reporting of the financial data attributes. For example, a
business rule for establishing the Fund Type Code attribute stated that the system must
use the code for general ledger posting, financial reporting, budgetary control, and
funds control. The system managers needed to demonstrate the capability of using the
Fund Type Code for each of these activities to comply with the business rule. During
the FY 2012 assessment, DCMO personnel determined that EBS should have
implemented the capability to accomplish 222 of the 293 SFIS business rules that
supported 55 of the 66 SFIS attributes. Of the remaining 71 business rules, 22 did not
apply to DLA business activities, 25 were overcome by events and will be removed




10
  The DCMO issued the Compliance Checklist for SFIS-BEA 8.0 in March 2011. The Compliance
Checklist for SFIS-BEA 7.0, March 2010, measured compliance with 72 SFIS attributes using
corresponding business rules.


                                              8
from subsequent versions of the BEA, and 24 did not have implementing requirements
defined by DoD managers.

EBS Did Not Populate SFIS Attributes Correctly
EBS program managers could not demonstrate that EBS implemented 99 of the
222 SFIS business rules applicable to DLA business activities. The 99 business rules
directly supported 41 of the 55 SFIS attributes applicable to DLA business activities. 11
Appendix D describes the business rules, by attribute, which program managers did
not configure in EBS correctly. The FY 2012 assessment showed that EBS program
managers did not:

       •   establish 51 business rules within EBS,
       •   develop the capability to produce an SFIS compliant trial balance required to
           support implementation of 23 business rules,
       •   capture the EBS data necessary to comply with 8 business rules, or
       •   implement 17 business rules correctly.

To determine the significance of not implementing the business rules correctly, we
reviewed the January 2012 transactions supporting 21 EBS general ledger-posting
accounts. Appendix E shows the errors found for 18 of the 21 judgmentally selected
EBS posting accounts. For example, seven EBS posting accounts did not accurately
populate the Trading Partner Indicator Code attribute with a valid domain value.
EBS should have the capability to populate a three-digit code assigned to each Federal
trading partner when recording a transaction with a Federal/Non-Federal Indicator
attribute domain value of “F.” Three of the seven EBS posting accounts reviewed
reported the attribute with an incorrect domain value of “0,” two reported with a
two-digit code, and the other two posting accounts reported no domain value. As a
result, EBS was not capable of identifying the Trading Partner Indicator Code
correctly. Consequently, DLA was unable to eliminate its intragovernmental
transactions as required by DoD FMR, volume 6B, chapter 13, “Adjustments,
Eliminations, and Other Special Intragovernmental Reconciliation Procedures.”

In addition, EBS did not consistently populate the Availability Time Indicator attribute
with a valid domain value for EBS general ledger-posting account 4610.0100. The
USSGL required the reporting of the attribute in that account to indicate whether funds
were available for execution in the current period (domain value “A”) or a subsequent
period (domain value “S”). In addition, the SFIS business rules associated with this
attribute required that systems use the indicator for financial reporting and budgetary
control. EBS general ledger-posting account 4610.0100 did not contain a domain
value for 40 of 97 transactions reviewed. During the BEA 8.0 assessment, DCMO
personnel identified that EBS was not recording funds available in a subsequent period
despite the confirmation that this requirement applied to EBS. DLA used funds, such


11
     To be compliant with an SFIS attribute, EBS must comply with all applicable business rules.


                                                     9
as multi-year appropriations, in subsequent periods. By not populating the attribute
correctly, EBS could obligate transactions using funds not available for obligation in
the current period.

In May 2012, EBS program managers informed us that DLA formed a working group
to develop a financial improvement plan to correct the 99 noncompliant business rules
and take actions to resolve any other issues related to the EBS general ledger.
To address these issues, the Director, DLA, should develop a plan of action and
milestones within 90 days of the date of this report. The plan of action and milestones
should detail the design and fund system change requirements necessary to implement
the SFIS business rules.

Previous Assessments Provided Different Results
The original BEA 7.0 pilot assessment process did not provide a comprehensive
review of business rules needed to provide the validation needed to demonstrate
SFIS compliance. DCMO findings during the pilot assessments and appropriate
decisions by DoD managers resulted in expanding the scope of all future assessments.
This led to a reduction in SFIS compliancy between the BEA 7.0 pilot assessment and
the BEA 8.0 DCMO assessment conducted on EBS during the audit. Specifically,
EBS no longer complied with 47 BEA business rules during the BEA 8.0 assessment.
DCMO personnel explained that the basis for the differences found between their two
assessments resulted from a combination of factors, including:

   •   original interpretation of the business rules,
   •   posting logic sampling,
   •   lessons learned from performance of other SAP validations,
   •   validation of business rules using a test environment,
   •   assumption that business rules would be removed in future SFIS revisions, and
   •   human error.

For example, during the pilot testing in FY 2010, DCMO personnel did not validate
whether EBS program managers set up the business rules to capture the
Current/Non-Current Indicator attribute correctly because they believed that BEA 8.0
would not include this attribute. However, DFAS needed the attribute to prepare the
financial statement notes. DCMO personnel ultimately decided not to remove the
attribute from BEA 8.0 because it supported DoD financial reporting needs. The
FY 2012 DCMO assessment determined that EBS did not capture the
Current/Non-Current Indicator attribute correctly. Generally, EBS program managers
asserted the system’s compliance with some business rules based on anticipated
compliance in the future rather than on the system’s actual capability at the time of the
assessment. Therefore, in their BEA 8.0 self-assessment, EBS program managers
asserted compliance with 80 business rules that DCMO personnel found as
noncompliant in the FY 2012 BEA 8.0 assessment.

The FY 2012 BEA 8.0 self-assessment also inaccurately reflected EBS capabilities
because it did not include a determination of whether EBS implemented the DoD

                                           10
SCOA, posted transactions using the SFIS Transaction Library, or recorded SFIS
attribute values correctly. DoD personnel did not conduct their assessments using a
level of scrutiny that could have provided the IRB with an accurate indication of
EBS’s actual capability to achieve SFIS compliance. As a result, the IRB use of either
assessment would not have prompted the IRB to restrict further funding for system
deployment and enhancements based on the system’s inability to achieve the required
SFIS data standardization structure.

DoD Managers Need to Define SFIS Business Rules
For various reasons, DoD managers did not define the actions necessary for
implementing the 24 business rules supporting four attributes in the BEA 8.0 SFIS
Compliance Checklist. For example, DoD managers stated that they did not define the
business rules to support three attributes (Contingency Code, Program Code, and
Organization Unique Identifier) because of unclear policies for identifying the ERP
system configuration necessary for reporting the attributes. DoD managers further
stated that although they fully defined the Transaction Type Code attribute, the
associated business rules required modification in the next BEA version. Therefore,
DCMO personnel recommended that system program managers not configure the
requirements prematurely. For these reasons, EBS program managers should not
configure these 24 business rules until DCMO personnel update the requirements for
them.

Future versions of the BEA would need to reconfigure the SFIS attributes to support
the Governmentwide Treasury Account Symbol (GTAS) Adjusted Trial Balance
System. For example, the March 2012 BEA version eliminated 23 of the 293 current
business rules supporting 5 SFIS attributes, while adding new attributes and business
rules to accomplish GTAS financial reporting. Unless DoD managers tell system
program managers which of the SFIS business rules they should not implement
because of changes required to comply with GTAS requirements, program managers
may expend resources to develop a capability that is not required to support the
FY 2014 reporting environment. DoD managers should perform an immediate
assessment of the SFIS business rules and provide the program managers with a
definitive list of business rules that ERP systems will require by FY 2014 to support
financial reporting to the GTAS.

EBS Program Managers Could Not Demonstrate System’s
Compliance With SFIS Posting Logic
EBS program managers could not validate that the system was capable of recording all
required DLA business events using the SFIS posting logic. The SFIS Transaction
      As of September 30, 2012, EBS        Library contained the posting logic that
        program managers could not         system program managers should
  demonstrate that they implemented the implement to consistently record business
    required posting logic contained in    events. As of September 30, 2012, EBS
       the SFIS Transaction Library.       program managers could not demonstrate
                                           that they implemented the required posting
logic contained in the SFIS Transaction Library. They were unable to identify the

                                          11
specific SFIS transaction codes that EBS was capable of posting and whether the
posting logic EBS implemented correctly posted the required general ledger accounts.
In April and May 2012, the auditors and DCMO personnel each provided the EBS
program managers a list of specific business events and requested that they provide the
EBS posting logic to support each event. EBS program managers did not provide the
documentation to demonstrate that EBS had the built-in capability to post transactional
data to the correct proprietary and budgetary general ledger accounts for the selected
business events. The lack of documentation prevented us from assessing compliance
with the SFIS Transaction Library.

DCMO personnel informed us that they never attempted to validate whether EBS
could post business events, as intended by the SFIS Transaction Library, until they
performed the requested FY 2012 assessment. Therefore, they had no assurance that
EBS program managers correctly implemented the posting logic. 10 U.S.C. 2222
required the Pre-Certification Authority12 to determine whether EBS was in
compliance with the BEA and appropriate business reengineering efforts had been
undertaken. The DLA pre-certification letters dated prior to October 2010 stated that
EBS was in compliance with BEA version 6.0. However, beginning in October 2010,
the DLA Chief Information Officer no longer issued pre-certification letters stating
that EBS was in compliance with the BEA. Instead, his pre-certification letters only
asserted that he reviewed the modernization effort and recommended to the IRB that a
determination be made that the system was in compliance with the BEA (versions 7.0
                                              and 8.0). The IRB provided additional
   EBS program managers should have
                                              funding to further deploy the system and
     provided better SFIS compliance
                                              implement additional EBS enhancements
          information to the IRB.
                                              despite EBS not demonstrating a
                                              capability to post SFIS Transaction
Library business events or the Pre-Certification Authority determining that EBS was
BEA compliant. EBS program managers should have provided better SFIS
compliance information to the IRB. In accordance with 10 U.S.C. 2222 (a), the IRB
should have required the Pre-Certification Authority to determine whether EBS was
BEA compliant before certifying the EBS for additional funding. The IRB should
have required SFIS implementation before developing and deploying additional EBS
capabilities that could not ensure the reporting of proper financial data. DoD
managers should restrict EBS funding until EBS program managers demonstrate that
EBS contains the SFIS business rules, DoD SCOA reporting accounts, and SFIS
Transaction Library posting logic needed to report financial data properly.



12
   10 U.S.C. 2222(f) states that for a Defense agency, the Director or equivalent of such Defense agency
is the appropriate Pre-Certification Authority, unless otherwise approved by the DCMO. DoD
Instruction 5000.02, “Operation of the Defense Acquisition System,” December 8, 2008, states that each
DoD Component designates a Pre-Certification Authority responsible for review and validation of all
information submitted by the system program manager. The updated Investment Review Board
Concept of Operations, dated June 10, 2012, stated that, for Defense agencies, the Director of the
agency was the Pre-Certification Authority.


                                                  12
An analysis of the December 2011 trial balances supporting the DLA General Fund
and Working Capital Fund determined that the amounts reported for corresponding
proprietary and budgetary accounts did not match, which indicated that EBS could not
post these accounts simultaneously using the SFIS posting logic. For example, the
trial balance data showed that the amounts reported for Advances and Prepayments
(GLAC 1410) did not agree with the amounts reported for Undelivered
Orders-Obligation, Prepaid/Advanced (GLAC 4802). EBS should have posted these
accounts simultaneously when making an advance payment and placing an order for
goods or services to be received in the future; however, the data showed that
EBS incorrectly used the undelivered orders account (GLAC 4802) to record goods
accepted and paid for by the Government but not matched to a depot delivery receipt.
As a result, the budgetary and proprietary accounts did not match.

In addition, EBS did not have the capability to post the Estimated Contract Authority
(GLAC 4032) at the transactional level using the SFIS posting logic. Instead,
DFAS recorded a portion of the financial data related to contract authority using
DDRS journal vouchers. The SFIS Transaction Library identifies by general fund and
working capital fund which business events are applicable and assigns a transaction
code to each. EBS program managers should have identified how each of the SFIS
Transaction Library transaction codes affected DLA business events and reengineered
their business processes accordingly. The Director, DLA, should design and fund
system change requirements necessary to implement the most recent SFIS Transaction
Library correctly by using the posting accounts and logic needed to accomplish
transactional posting of all DLA business events before adding any other capabilities.

EBS Program Managers Should Develop the Correct
Charts of Accounts
EBS program managers did not correctly establish and update the system’s capability
to record and report DoD SCOA financial data. DoD managers developed the DoD
SCOA to identify the accounts that DoD activities needed to support general fund and
working capital fund financial reporting. However, EBS program managers created
the existing EBS posting logic and account structure before the USD(C)/CFO issued
the DoD SCOA. Subsequently, EBS program managers determined that reconfiguring
the system to implement the DoD SCOA directly would be cost-prohibitive.
USD(C)/CFO guidance allowed EBS program managers to develop an alternate chart
of accounts with the capability to report the DoD SCOA reporting accounts supporting
the general and working capital funds financial reporting requirements.

As of our review in FY 2012, EBS program managers did not:




                                          13
     •   establish an alternate chart of accounts containing the 693 reporting accounts
         needed to report general and working capital funds financial data to DoD
         management; 13
     •   update since FY 2009 the EBS posting chart of accounts with the correct
         accounts needed to report DLA business events, including establishing normal
         balances and account definitions; 14
     •   internally crosswalk EBS posting accounts to the alternate chart of accounts
         containing the DoD SCOA reporting accounts; or
     •   develop the trial balances needed to report DLA financial data directly into
         DDRS.

EBS program managers should have taken immediate actions to develop an alternate
chart of accounts containing all required DoD SCOA reporting accounts and then
determined how to crosswalk the existing and newly created EBS posting accounts to
the alternate chart of accounts. They also should have implemented the SFIS
Transaction Library posting logic for those accounts needed to support DLA business
events and documented their determination of which DoD SCOA reporting accounts
would not be configured until that type of business activity became part of DLA
business.

EBS Did Not Contain Required DoD SCOA Reporting Accounts
EBS program managers developed the capability to report financial data for only
394 of the 693 DoD SCOA reporting accounts. EBS did not have the capability to
report financial data for the other 299 DoD SCOA reporting accounts. However, 58 of
the 299 reporting accounts will not be required in FY 2013. See Appendix F for the
list of 241 missing reporting accounts. EBS program managers should have
documented their reasoning for not implementing the accounts and obtained a waiver
from the IRB to eliminate each account within the EBS chart of accounts. In some
cases, EBS program managers did not establish the posting accounts necessary to
support the detailed level of reporting required by the DoD SCOA. In other cases,
they did not identify the reengineering needed to develop the ability to record DLA
financial events at the transaction level. Instead, they continued the practice of
recording the financial data using manual workarounds and data calls that DFAS
recorded at the summary level.




13
   There were 998 reporting accounts in the FY 2012 DoD SCOA. Based on input from DoD managers
and EBS program managers, we determined that 693 DoD SCOA reporting accounts applied
to EBS operations. The remaining 305 accounts were not reportable at the DLA level and were either
not applicable to DoD or were derived or populated using journal vouchers at the Departmental level.
14
   Posting accounts are established in EBS to manage DLA business events and reporting requirements.
Reporting accounts are established by DoD for reporting to DDRS. Each posting account must be
internally crosswalked to one reporting account.


                                                 14
For example, EBS program managers should have developed the capability for EBS
to:

    •   record DLA’s Current-Year Authority Transfers In and Current-Year
        Authority Transfers Out data using separate DoD SCOA reporting accounts
        Transfers – Current-Year Authority Transfers In (4170.3102) and
        Transfers – Current-Year Authority Transfers Out (4170.3103). Instead, EBS
        program managers recorded DLA’s Transfers – Current-Year Authority
        Transfers In and Transfers – Current-Year Authority Transfers Out data to a
        single posting account (4170.0100) and crosswalked that data to a single DoD
        SCOA reporting account (4170.9000). As a result, DoD managers could not
        differentiate for management purposes the value of Transfers – Current-Year
        Authority Transfers In and Transfers – Current-Year Authority Transfers Out.

    •   record data using the 13 accounts receivable posting accounts in EBS and
        determine to which of the 8 DoD SCOA reporting accounts each of the
        13 posting accounts should have been crosswalked. Instead, EBS program
        managers recorded DLA’s accounts receivable data in the 13 separate posting
        accounts and crosswalked the data to a single DoD SCOA reporting account.
        As a result, they could not accurately report to DoD the accounts receivable
        data related to vendor overpayments and undistributed collections.

By not recording and reporting its data in accordance with the DoD SCOA and SFIS
posting logic, EBS did not report data at the level of detail DoD required for preparing
financial statements and managing day-to-day activities. The Director, DLA, should
implement an EBS alternate chart of accounts that has the capability to report the DoD
SCOA for general fund and working capital fund activities at the transactional level.

EBS Program Managers Were Not Updating Chart of Accounts
EBS program managers did not update the chart of accounts after each issuance of the
DoD SCOA or establish normal account balances and account definitions. At a
minimum, the Treasury revised the Supplement annually and, in response,
USD(C)/CFO personnel should have incorporated the revisions into the DoD SCOA.
Before the beginning of each fiscal year, EBS program managers should have added,
deleted, or updated the account information for each DoD SCOA reporting account.
For example, EBS program managers should have updated EBS for the following
FY 2012 DoD SCOA reporting account changes:

   •    added account Accounts Receivable-Unsupported Undistributed Collections-
        Department Level (1310.0950),
   •    deleted account Benefits Expense-Personnel Benefits-Annual Leave
        (6400.0100), and
   •    updated account title and normal balance for Amortization of Premium on
        U.S. Treasury Securities Issued by the Bureau of the Public Debt-Non-
        Marketable Market Based-Premium (1613.0600).


                                           15
EBS program managers admitted that they did not update the EBS account
information to reflect changes made in the DoD SCOA since FY 2009. They
waited on DCMO to complete its assessment of EBS’s SFIS configuration. Therefore,
EBS program managers stated that they were unable to work on and implement
System Change Request (SCR) number BFI-09-034, which they initiated in May 2009,
because it competed with other conflicting tasks, such as Base Realignment and
Closure/Inventory Management and Stock Positioning and eProcurement, which
consumed functional and technical resources. Instead, they relied on DFAS to ensure
that account information complied with the DoD SCOA 15 The Director, DLA, should
develop procedures to verify that the EBS Program Management Office updates the
EBS posting and reporting chart of accounts after each update to the DoD SCOA.

EBS Did Not Contain Normal Account Balances
EBS program managers did not establish a normal balance for each EBS posting
account. The DFAS 7900.4-M, “Financial Management Systems Requirements
Manual,” (Blue Book) volume 1, “General Ledger,” May 2011, states that the general
ledger, as the ultimate overall control for capturing the effects of all financial events,
ensures that debits equal credits for every recorded transaction in a single journal
entry. The Blue Book requires systems to provide automated functionality to prevent
out-of-balance conditions at any level of the accounting classification structure or
within the accounts. The Supplement states that the normal balance identified the
normal condition of an account’s balance. Without establishing a normal balance for
each EBS posting account, DLA could not prevent abnormal balance conditions or
provide information needed by EBS program managers to acknowledge and address
potential problems involving the abnormal condition of an account’s balance. EBS
program managers informed us that EBS did not contain normal balances for its
posting accounts or provide a report of accounts with abnormal balances. Standard
SAP functionality has an “inflation key” data field, which would allow EBS program
managers to enter a debit or credit normal balance for each account. In addition to
providing necessary information about the account, it also can alert EBS program
managers to potential problems when an account has an abnormal balance. The
Director, DLA, should identify the normal balance of each EBS posting account by
assigning a value in the inflation key data field of each posting account.

EBS Did Not Contain Account Definitions
EBS program managers did not establish definitions for each EBS posting account.
The Blue Book requires financial management systems to contain definitions for


15
  On September 8, 2011, the DLA Chief Financial Officer approved a Mission Work Agreement with
DFAS, which requires DFAS to maintain the general ledger. The Agreement requires DFAS to post
and reconcile the general ledger, prepare the trial balance, research and correct errors, and perform
comparative analysis of report data. Also, the Agreement requires DFAS to perform fund control and
budgetary accounting as well as generate accounting reports. Previously, DFAS performed this type of
work without a formal agreement.



                                                 16
agency-specific general ledger sub-accounts and memorandum accounts. The account
definition would allow EBS program managers to provide detailed information, such
as:

   •   the purpose and use of an account,
   •   the type of data the system records in an account, and
   •   any other information necessary to understand the account.

EBS program managers confirmed that EBS did not contain account definitions nor
did they establish these definitions outside the system. Instead, they relied on account
titles to figure out how to use an account. Standard SAP functionality has two data
fields for each account title: “Short Text” and “G/L Acct Long Text.” However, those
data fields have limited space in EBS. Specifically, the “Short Text” data field allows
only up to 20 characters and the “G/L Acct Long Text” data field allows only up to
50 characters. This space limitation may not provide the user with adequate
information about the account. The Director, DLA, should define each account used.
If SAP functionality does not provide a data field intended specifically for account
definitions, EBS program managers should document account definitions external to
the system.

EBS Should Contain the Official Crosswalk of DLA
Financial Data
EBS program managers did not establish an internal crosswalk within EBS to report
EBS posting accounts to an alternate chart of accounts containing the DoD SCOA
reporting accounts. In his August 13, 2007, policy memorandum, the Acting Deputy
Chief Financial Officer required consistent implementation of the DoD SCOA in ERP
systems. These systems must include the DoD SCOA accounts within their system or
have the capability to crosswalk existing posting accounts to an alternate chart of
accounts capable of reporting the DoD SCOA reporting accounts. Once established,
EBS would use the alternate chart of accounts to summarize transactional activity and
report financial information to DDRS and other users in a DoD standard format. ERP
systems may use more detail in their posting chart of accounts, but each posting
account must report to only one DoD SCOA reporting account.

Standard SAP functionality includes crosswalking capability, which allowed program
managers to populate an “alternative account number” data field for each posting
account with a corresponding DoD SCOA reporting account. The SCR number
BFI-09-034 included a crosswalk between the May 2009 version of the EBS chart of
accounts and the FY 2009 DoD SCOA. The SCR also requested the implementation
of the DoD SCOA within EBS. We reviewed the crosswalk and found 20 posting
accounts mapped to multiple DoD SCOA reporting accounts. DLA Information
Operations returned the SCR because of a lack of detail. Instead of implementing the
SCR, EBS program managers relied on DFAS Columbus personnel to externally
crosswalk data from EBS to DDRS.



                                          17
In January 2012, DLA provided us three crosswalks for Supply Management,
Document Services, and Strategic Materials. The crosswalks showed how DFAS had
mapped the EBS working capital fund accounts to DoD SCOA accounts in
DDRS-Budgetary. We compared the EBS posting accounts to the three Feeder
Account Crosswalks and identified issues with how EBS program managers and
DFAS personnel mapped the EBS posting accounts. For example,

   •   22 invalid EBS posting accounts were aggregated to a specific four-digit
       GLAC.
   •   28 EBS posting accounts were crosswalked to DoD SCOA accounts that
       should not be posted at the transaction level. Seven of the 28 accounts were
       crosswalked to accounts that DoD was not authorized to use.
   •   47 EBS posting accounts were crosswalked to accounts contained in DDRS,
       but not contained in the DoD SCOA.

Crosswalking EBS posting accounts outside the system degrades the audit trail of the
transactional data and can result in posting financial data to the improper accounts.
The Director, DLA, should determine the appropriate DoD SCOA reporting account
for each EBS posting account and establish an internal crosswalk to report
transactional data to an alternate chart of accounts containing the current DoD SCOA.

EBS Must Generate Trial Balances That Report Directly
to DDRS
EBS could not generate the trial balance data for direct reporting to DDRS. The
system’s inability to internally crosswalk its posting accounts to DoD SCOA reporting
accounts prevented the summarizing of transactional activity needed to prepare the
trial balance data for direct reporting to DDRS. As a result, DFAS personnel used
manual workarounds to populate the DLA financial statements. Specifically, DFAS
accountants downloaded trial balances from EBS and manually transmitted the data to
DDRS. DFAS required at least four GS-12 accountants and one GS-11 accountant to
download EBS trial balances and prepare the DDRS upload. Monthly, the following
actions took place:

   •   DFAS personnel populated DLA Working Capital Fund financial information
       by creating text files using EBS trial balance data reports, refining that data,
       and manually uploading the data into DDRS. DFAS and DDRS Program
       Management Office personnel developed a crosswalk within DDRS to map
       EBS posting accounts to the DoD SCOA reporting accounts. We reviewed the
       crosswalk and identified EBS posting accounts that did not exist in the DoD
       SCOA. DFAS personnel stated that the additional accounts were necessary to
       report information for management reports.

   •   DFAS personnel manually crosswalked DLA General Fund trial balance data
       to the DoD SCOA and prepared journal vouchers to load the information into
       DDRS-Budgetary. DFAS personnel created manual working papers to support
       these journal vouchers. For example, DFAS personnel informed us that EBS

                                          18
       did not separately record Accounts Payable for Federal and Nonfederal
       transactions. Instead, EBS reported all accounts payable transactional activity
       initially in DDRS-Budgetary as Nonfederal, and then DFAS personnel adjusted
       the accounts payable balances, using journal vouchers, based on seller-side
       information. The manual workarounds compromised the audit trail because
       users could not trace the value of the financial statement line items to the
       supporting transaction level data. The manual processes crosswalked EBS
       posting accounts to DoD SCOA reporting accounts and SFIS attributes;
       however, we were unable to verify that the appropriate attributes were
       populated correctly in DDRS.

As of August 2012, DFAS billed DLA more than $30 million to perform accounting
functions in FY 2012. The inability of EBS to record transactional data correctly
using SFIS and report trial balance data directly into DDRS caused DoD managers to
require DFAS personnel to continue gathering and reconciling manual data to develop
a complete DLA trial balance. These manual processes caused DoD to expend funds
unnecessarily to develop a trial balance that EBS should be able to generate at the
transaction level. The Director, DLA, should develop DLA trial balances by type of
appropriation (general fund) or business activity (working capital fund) that comply
with the SFIS Transaction Library and report directly into DDRS.

Limited Assurance of SFIS Implementation
DoD managers did not provide the consistent oversight or develop the stringent
validation and certification procedures necessary to ensure that EBS and other ERP
system program managers implemented SFIS requirements correctly. DoD managers
developed the DoD SCOA and SFIS Transaction Library to provide the blueprint
needed to substantially comply with the USSGL at the transaction level.
However, although these SFIS requirements substantially comply with the USSGL at
                                              the transaction level, DoD managers did
      Although these SFIS requirements        not provide the needed oversight or take
   substantially comply with the USSGL at the actions necessary to ensure ERP
    the transaction level, DoD managers       systems program managers implemented
   did not provide the needed oversight or those requirements. Specifically, DoD
     take the actions necessary to ensure     managers had limited assurance that
       ERP systems program managers           ERP system program managers
       implemented those requirements.        implemented the SFIS requirements and
                                              that the Pre-Certification Authority
accurately reported the implementation status. DoD managers did not hold the ERP
systems program managers accountable for not implementing SFIS requirements.
Instead, DoD managers approved funding for EBS program managers to deploy
additional system functionality knowing that EBS was not SFIS compliant. EBS did
not meet general ledger and financial reporting requirements and required additional
funding to implement applicable SFIS requirements. DoD managers also did not
establish procedures requiring system owners to certify that their program managers
correctly implemented all SFIS requirements or establish a comprehensive one-time
validation process to baseline system compliance. During the last 2 years, the DoD

                                         19
Office of Inspector General conducted audits on the other five DoD ERP general
ledger systems to assess their compliance with the SFIS requirements. 16 In all cases,
the audits found that the ERP systems were not complying with the SFIS
requirements.

Process Needed for Certifying SFIS Compliance
DoD managers did not validate that the Pre-Certification Authorities confirmed that
program managers implemented SFIS requirements. A more robust certification
process was needed that assigned accountability and ensured that system program
managers properly assessed, documented the applicability, and implemented the SFIS
requirements to their new systems. Instead, DCMO personnel relied on a self-
certification process that did not provide assurance that EBS program managers had
implemented the SFIS requirements. The Director, DLA, did not validate that the
EBS program managers reengineered the business processes to subsume existing
manual workarounds into EBS, nor did the Director inform the IRB that EBS program
managers did not document the applicability of SFIS requirements to DLA business
events. As a result, the IRB authorized funding for further EBS deployment to DLA
activities and the funding of additional enhancements without EBS having a general
ledger capable of recording the accounting transactions using SFIS business rules and
posting logic. The Director, DLA, should validate and certify annually to the IRB that
the EBS Program Management Office had properly documented the system’s
capability to report the current DoD SCOA and accomplish the transactional posting
as detailed in the SFIS Transaction Library.

Baseline Needed for SFIS Compliance in ERP Systems
DoD managers did not develop a stringent validation process that could baseline
whether an ERP system program manager effectively implemented the DoD SCOA
and SFIS Transaction Library. In response to DoD Office of Inspector General Report
No. D-2011-015, “Insufficient Governance Over Logistics Modernization Program
System Development,” November 2, 2010, DCMO personnel began evaluating ERP
system compliance with SFIS requirements. However, instead of performing a
complete review of a system’s posting logic, this process reviewed only portions of the
SFIS requirements and a sample of transactions for each system. DoD managers
needed to establish procedures that would initially assess whether ERP systems
implemented all applicable SFIS requirements correctly. Without performing an
initial 100 percent posting logic review, DoD managers could not validate that ERP
program managers effectively implemented all applicable SFIS requirements and
established a baseline for testing future changes to SFIS requirements. After the
Pre-Certification Authorities certify compliance with the SFIS requirements, DoD



16
   The other five DoD ERP systems are the General Fund Enterprise Business System, Logistics
Modernization Program system, Navy ERP system, Defense Enterprise Accounting and Management
System, and Defense Agencies Initiative. See Appendix B for the audit reports. The issuance of the
final report on the Defense Agencies Initiative has not yet occurred.


                                                 20
managers should conduct a one-time validation of each DoD ERP system that will
baseline the system’s capability to post its required DoD business events correctly.

Subsequent Updates to SFIS Requirements Needed Validation
DoD managers also did not develop consistent procedures to ensure that ERP system
program managers assess and implement updates to DoD SCOA and SFIS Transaction
Library timely. DoD managers currently have policy that states when they will update
DoD SCOA and SFIS Transaction Library. If DoD managers had previously
baselined the ERP system, they would need to validate subsequent updates to the
SFIS requirements as they occur. Although DoD managers publish updates to SFIS
requirements on the Office of the DCMO website, they did not validate that
EBS program managers implemented the changes as required. Maintaining SFIS
compliance is essential for DoD attaining the data standardization required to develop
DoD financial statements and other financial management reports needed to support
daily operations. After each subsequent update to the DoD SCOA and SFIS
Transaction Library and business rules, the Director, DLA, should certify EBS
compliance to the IRB. In addition, DoD managers should establish procedures to
validate that the Pre-Certification Authorities certified accurately that system program
managers implemented all subsequent updates to the DoD SCOA and SFIS
Transaction Library. DoD managers should also validate that all ERP system program
managers implemented SFIS requirements through a stringent validation and
certification program.

Program Managers Needed to Address
SFIS Requirements
EBS program managers did not establish the system funding priorities needed to
implement SFIS requirements correctly. EBS program managers also did not assess
the impact of not establishing the SFIS requirements before allocating additional
funding to expand EBS capabilities and complete system deployment. Therefore, the
additional functionality may not have the capability to record the financial events as
required by the SFIS Transaction Library.

EBS program managers placed a higher priority on deploying the core system and
implementing additional functions, such as Real Property and Energy Convergence,
over making the changes necessary for SFIS compliance. The IRB certification
process required that ERP systems demonstrate compliance with the DoD SCOA and
SFIS Transaction Library before the system program managers meeting with the
Enterprise Integration Team. During this meeting, the Enterprise Integration Team
would evaluate EBS for SFIS compliance, which includes an assessment to ensure that
EBS program managers implemented the SFIS business rules, attribute values, and
standard configuration.

In meetings held during FYs 2010, 2011, and 2012, the IRB did not require EBS
program managers to demonstrate full SFIS compliance before allowing additional
funding for further deployment or system enhancements. Instead, the IRB permitted

                                          21
EBS program managers to deploy additional system enhancements without ensuring
the development of a transaction-level general ledger. Therefore, EBS program
managers continued to use existing workarounds to record business events at the
departmental level, rather than accomplishing the business reengineering necessary to
record the events using a transaction-level general ledger. Specifically, EBS program
managers did not identify all existing manual workarounds, such as data calls and
journal vouchers, which they should have incorporated at the transaction level. The
Director, DLA, should reengineer manual business processes to incorporate the
recording of transactional data within EBS using SFIS posting logic and the DoD
SCOA.

Support of DoD Financial Statements
DoD managers committed to producing fully auditable financial statements by
FY 2017. However, EBS program managers have not implemented the SFIS
requirements DLA will need to report accurate financial data in its general fund and
                                                working capital funds. DoD
   The ability for EBS to implement SFIS        subsequently used this information to
   requirements correctly is essential for      generate the DoD financial statements.
   achieving the financial data standards       As of September 30, 2012, EBS could
   that DoD managers require to resolve         not produce the trial balance data
     the material weaknesses preventing         necessary for DLA to report its financial
       auditable financial statements.          data correctly to DDRS. The ability for
                                                EBS to implement SFIS requirements
correctly is essential for achieving the financial data standards that DoD managers
require to resolve the material weaknesses preventing auditable financial statements.
DLA reported material weaknesses in several EBS end-to-end processes. For
example, in FY 2011, DLA reported a material weakness with Fund Balance With
Treasury related to reconciliations and undocumented processes for resolving
undistributed disbursements and collections. In its Accounts Payable material
weakness, DLA reported insufficient detail to determine if the system interfaces for
DLA were operating effectively. The DoD SCOA and SFIS Transaction Library
provided the data standardization needed to record and report the transactional data
that would help DLA officials resolve these and other material weaknesses.

The SFIS requirements, if implemented correctly, would also provide DLA with the
ability to record and execute DLA’s budget authority at the transaction level. Without
immediate actions to bring EBS in compliance with SFIS requirements, DoD was at
increased risk of not achieving an auditable DoD Statement of Budgetary Resources
for its general funds in FY 2014. In addition, DFAS must continue to perform manual
workarounds and incur additional costs to reconcile and report DLA financial data
since EBS could not generate trial balance data in accordance with the DoD SCOA.
Incorporating this functionality in EBS would prevent DoD from performing the
manual processes and data calls and reduce expenses.




                                           22
Management Comments on the Finding and
Our Response
Deputy Chief Financial Officer Comments
The Deputy Chief Financial Officer stated that he believes that we needed to remove
Table 3 from the report because its figures were misleading. He stated that the three
assessments depicted in the table were not comparable because DoD conducted them
at different times and measured different things.

Deputy Chief Management Officer Comments
The DCMO stated that the SFIS validation performed on EBS during the pilot process
was in no way associated to the Financial Management IRB funds certification process
or BEA compliance. The DCMO stated that the EBS Program Management Office
volunteered to help with the definition of an SFIS validation process, which would
replace the self-assessment process. Therefore, she asserted that the pilot validation
statistics were not comparable to either the BEA 8.0 DLA self-assessment or the
BEA 8.0 DCMO assessment.

Our Response
The data depicted in Table 3 represent the actual results of each of the three
assessments conducted on EBS by DoD personnel. The discussion in the report that
precedes and follows the table clearly explains that the initial statistics depict a pilot
process that was limited in scope and indicates that DoD managers correctly increased
the scrutiny of the systems compliance when developing the follow on validation
process for this and other ERP systems. DLA personnel told us that they used the pilot
assessment methodology as their baseline for conducting their BEA 8.0
self-assessment.

In response to DoD Office of Inspector General Report No. D-2011-015, the
USD(C)/CFO and DCMO stated that they piloted a SFIS and USSGL validation
process. This pilot program eventually expanded into the Financial Management IRB
process; during which, a cross-functional task force was to validate system
configuration in accordance with SFIS business rules and the DoD SCOA. In
February 2012, we requested DCMO personnel to conduct a full assessment because
they did not assess EBS since it participated in the pilot and did not subject this system
to the more stringent validation process. The original IRB process required a system
to be SFIS compliant before allowing funding. Consequently, the Financial
Management IRB should have used the assessment process to make funding decisions.




                                           23
Recommendations, Management Comments, and
Our Response
1. We recommend that the Deputy Chief Management Officer and Deputy Chief
Financial Officer improve accountability for Standard Financial Information
Structure implementation. They should direct their offices to:

      a. Perform an immediate assessment of the Standard Financial
Information Structure business rules and provide program managers of the core
systems with a definitive listing of business rules that systems will require by
FY 2014 to support financial reporting to the Governmentwide Treasury Account
Symbol Adjusted Trial Balance System.

Deputy Chief Financial Officer Comments
The Deputy Chief Financial Officer agreed with the recommendation and stated that
his office would work with the Deputy Chief Management Officer to provide a
definitive list of business rules necessary to support GTAS financial reporting.

Deputy Chief Management Officer Comments
The Deputy Chief Management Officer agreed with the recommendation. She stated
that her office performed an assessment of current SFIS business rules and, in
conjunction with the Deputy Chief Financial Officer, they will distribute a definitive
list to support GTAS financial reporting to the system program managers.

Our Response
Comments from the Deputy Chief Financial Officer and the Deputy Chief
Management Officer were responsive. No further comments are required.

       b. Restrict Enterprise Business System funding until program managers
demonstrate that the system contains the Standard Financial Information
Structure business rules, DoD Standard Chart of Accounts reporting accounts,
and Standard Financial Information Structure Transaction Library posting logic
needed to report its financial data properly.

Deputy Chief Financial Officer Comments
The Deputy Chief Financial Officer partially agreed with the recommendation and
stated that DoD has procedures and processes in place, under the Defense Business
Council, to ensure funding is limited or not certified for investment proposals that
have not demonstrated compliance with requirements. The Deputy Chief Financial
Officer stated that because EBS is not only the DLA general ledger, but also the
supply chain solution, funding may only be restricted to the extent it does not
adversely impact the DLA mission.




                                          24
Deputy Chief Management Officer Comments
The Deputy Chief Management Officer partially agreed with the recommendation and
provided comments similar to the Deputy Chief Financial Officer.

Our Response
Comments from the Deputy Chief Financial Officer and the Deputy Chief
Management Officer were responsive. Although we agree that EBS also served as a
supply-chain management system, DoD managers need to weigh carefully decisions
that prioritize expansion of functionality over bringing the general ledger functionality
into SFIS compliance. No further comments are required.

      c. Conduct a one-time validation of each DoD Enterprise Resource
Planning system after Pre-Certification Authorities certify compliance with the
Standard Financial Information Structure requirements.

Deputy Chief Financial Officer Comments
The Deputy Chief Financial Officer agreed with the recommendation and stated that,
in concert with the Deputy Chief Management Officer, their offices completed a
one-time validation of 90 percent of the ERP general ledger accounting systems and
made plans to complete the remaining systems.

Deputy Chief Management Officer Comments
The Deputy Chief Management Officer agreed with the recommendation and stated
that her office completed a one-time validation of 90 percent of the target ERP general
ledger accounting systems and made plans to complete the one-time validation of the
remaining systems. She further stated that the receipt of the Pre-Certification
Authority letters just before the beginning of the fiscal year does not allow enough
time to conduct detailed validations in time to influence Defense Business Council
funding decisions. Consequently, the validation process has to be an ongoing effort
throughout the fiscal year.

Our Response
Comments from the Deputy Chief Financial Officer and the Deputy Chief
Management Officer were partially responsive. Although they agreed with the
recommendation, they did not address or specify when their offices would conduct a
one-time validation to baseline each of the ERP systems under development. As
discussed in this report, DoD established the BEA to comply with Public
Law 110-181. The BEA requires ERP systems to be fully SFIS compliant. As of
January 2013, the DLA EBS did not achieve full compliance. In addition, audits
conducted on the other five ERP systems also identified that those systems did not
achieve full SFIS compliance. Further, DCMO BEA assessments did not include a
complete review of each of the systems’ posting logic. The current process reviewed
only portions of SFIS requirements. Until an initial 100 percent review of the posting
logic is completed, DoD will lack assurance that program managers met all SFIS
requirements. Once a system’s Pre-Certification Authority asserts full SFIS

                                           25
compliance, DCMO personnel should conduct a one-time validation of the ERP
system functionality. This assessment will establish a baseline that assures
DoD managers and Congress that the system program managers implemented the
DoD SCOA and related posting logic needed to properly record DoD business events.
We request the Deputy Chief Financial Officer and the Deputy Chief Management
Officer provide additional comments on the final report concerning how and when
they will conduct a baseline validation of each of the six ERP systems once their
Pre-Certification Authorities assert full SFIS compliance.

        d. Establish procedures to validate that the Pre-Certification Authorities
certified accurately that Enterprise Resource Planning system program
managers implemented all subsequent updates to the DoD Standard Chart of
Accounts and Standard Financial Information Structure Transaction Library.

Deputy Chief Financial Officer Comments
The Deputy Chief Financial Officer agreed with the recommendation and stated that
his office would work with the Deputy Chief Management Officer to implement the
recommendation. He also stated that they would initiate a working group to determine
the best way forward for validating the posting logic within the DoD Transaction
Library.

Deputy Chief Management Officer Comments
The Deputy Chief Management Officer agreed with the recommendation and stated
that her office would establish procedures to validate that Pre-Certification Authorities
certify compliance with the DoD SCOA and all applicable updates. She also stated
that they would initiate a working group to determine the best way forward for
validating the posting logic within the DoD Transaction Library.

Our Response
Comments from the Deputy Chief Financial Officer and the Deputy Chief
Management Officer were responsive. No further comments are required.

        e. Validate that all Enterprise Resource Planning system program
managers implemented Standard Financial Information Structure requirements
for all subsequent updates through use of a stringent validation and certification
program.

Deputy Chief Financial Officer Comments
The Deputy Chief Financial Officer agreed with the recommendation and stated that
his office would work with the Deputy Chief Management Officer to establish
procedures to validate that ERP systems implemented SFIS requirements for all
subsequent updates through the Defense Business Council process.




                                           26
Deputy Chief Management Officer Comments
The Deputy Chief Management Officer agreed with the recommendation and stated
that her office would establish procedures to validate the SFIS updates and a
requirement for the DoD Component to certify through the Defense Business Council
process.

Our Response
Comments from the Deputy Chief Financial Officer and the Deputy Chief
Management Officer were responsive. No further comments are required.

2. We recommend that the Director, Defense Logistics Agency:

      a. Validate and certify annually to Investment Review Board that the
Enterprise Business System Program Management Office had properly
documented the system’s capability to report the current DoD Standard Chart of
Accounts and accomplish the transactional posting as detailed in the Standard
Financial Information Structure Transaction Library.

Defense Logistics Agency Comments
The Deputy Director for Finance responded on behalf of the Director, Defense
Logistics Agency. The Deputy Director agreed with the recommendation and stated
that her office would develop appropriate documentation for verifying the DoD SCOA
criteria to be submitted to DoD annually for IRB certification.

Our Response
Comments from the Deputy Director for Finance were responsive. No further
comments are required.

       b. Reengineer manual business processes to incorporate the recording of
transactional data within the Enterprise Business System using Standard
Financial Information Structure posting logic and the DoD Standard Chart of
Accounts.

Defense Logistics Agency Comments
The Deputy Director for Finance responded on behalf of the Director, Defense
Logistics Agency. The Deputy Director agreed with the recommendation and stated
that her office would minimize manual departmental-level postings under the Audit
Readiness umbrella by implementing auditable processes.

Our Response
Comments from the Deputy Director for Finance were responsive. No further
comments are required.




                                        27
        c. Develop a plan of action and milestones within 90 days of the date of
this report. The plan of action and milestones should:

          (1) Detail the design and fund system change requirements necessary
to implement the Standard Financial Information Structure business rules and
Transaction Library needed to support the most recent version of the Business
Enterprise Architecture before adding any other capabilities.

Defense Logistics Agency Comments
The Deputy Director for Finance responded on behalf of the Director, Defense
Logistics Agency. The Deputy Director agreed with the recommendation and stated
that the DLA Audit Readiness Posting Logic Team is preparing a corrective action
plan to include EBS SCRs. The Deputy Director also stated that Audit Readiness
efforts identified this issue as a deficiency requiring system changes. SCRs will be
submitted when specific changes are identified.

Our Response
Comments from the Deputy Director for Finance were responsive. No further
comments are required.

          (2) Implement an Enterprise Business System alternate chart of
accounts that has the capability to report the DoD Standard Chart of Accounts
for general fund and working capital fund activities at the transactional level.

Defense Logistics Agency Comments
The Deputy Director for Finance responded on behalf of the Director, Defense
Logistics Agency. The Deputy Director agreed with the recommendation and stated
that Audit Readiness efforts identified this issue as a deficiency requiring system
changes. She stated that SAP recently released new GTAS functionality that will also
improve the SFIS compliance plan.

Our Response
Comments from the Deputy Director for Finance were responsive. No further
comments are required.

           (3) Determine the appropriate DoD Standard Chart of Accounts
reporting account for each Enterprise Business System posting account and
establish an internal crosswalk to report transactional data to an alternate chart
of accounts containing the current DoD Standard Chart of Accounts.

Defense Logistics Agency Comments
The Deputy Director for Finance responded on behalf of the Director, Defense
Logistics Agency. The Deputy Director partially agreed with the recommendation, but
stated it was premature to decide on the approach. She stated that DLA is currently


                                          28
working on the most efficient and comprehensive approach to enhance EBS
compliance with the USSGL and SFIS.

Our Response
Comments from the Deputy Director for Finance were partially responsive. Since
August 13, 2007, DoD has required ERP system program managers to determine
which DoD SCOA reporting accounts are applicable and how they should internally
crosswalk the existing general ledger posting accounts to report transactional data to
an alternate chart of accounts. Therefore, DLA should take immediate actions to
comply with this requirement. We request that the Director, Defense Logistics
Agency, provide additional comments on the final report addressing corrective actions
for ensuring compliance with the DoD SCOA.

           (4) Develop trial balances by Defense Logistics Agency appropriation
(general fund) or business activity (working capital fund) that comply with the
Standard Financial Information Structure Transaction Library and can report
directly into the Defense Departmental Reporting System.

Defense Logistics Agency Comments
The Deputy Director for Finance responded on behalf of the Director, Defense
Logistics Agency. The Deputy Director agreed with the recommendation and stated
that DFAS manual workarounds will be replaced by actions taken in response to
Recommendations 2.c.(1), 2.c.(2), and 2.c.(3).

Our Response
Comments from the Deputy Director for Finance were responsive. No further
comments are required.

      d. Develop procedures to verify that the Enterprise Business System
Program Management Office updates the Enterprise Business System posting
and reporting charts of accounts after each update to the DoD Standard Chart of
Accounts.

Defense Logistics Agency Comments
The Deputy Director for Finance responded on behalf of the Director, Defense
Logistics Agency. The Deputy Director agreed with the recommendation and stated
that this requirement falls under the Audit Readiness efforts. DLA already established
a posting logic team to monitor updates to the DoD SCOA.

Our Response
Comments from the Deputy Director for Finance were responsive. No further
comments are required.

      e. Certify Enterprise Business System compliance to the Investment
Review Board after each subsequent update to the DoD Standard Chart of

                                          29
Accounts and Standard Financial Information Structure Transaction Library
and business rules.

Defense Logistics Agency Comments
The Deputy Director for Finance responded on behalf of the Director, Defense
Logistics Agency. The Deputy Director partially agreed with the recommendation and
stated that DLA would follow processes developed by DoD in response to
Recommendation 1 and provide appropriate documentation for verifying compliance
with the DoD SCOA and SFIS Transaction Library once updates occur.

Our Response
Comments from the Deputy Director for Finance were responsive. The Deputy Chief
Financial Officer and the Deputy Chief Management Officer plan to establish
procedures to validate that all ERP system program managers implemented the SFIS
and all subsequent updates through the Defense Business Council process. The
Defense Business Systems Investment Management Process Guidance, dated
June 2012, states that the council will assess the determination made by the
Pre-Certification Authority to ensure that each applicable Defense business system is
compliant. No further comments are required.

        f. Identify the normal balance of each Enterprise Business System posting
account by assigning a value in the inflation key data field of each posting
account. If SAP functionality does not provide sufficient space for account
definitions, Enterprise Business System program managers should document
account definitions external to the system.

Defense Logistics Agency Comments
The Deputy Director for Finance responded on behalf of the Director, Defense
Logistics Agency. The Deputy Director partially agreed with the recommendation and
stated that DLA will identify normal account balances. The Audit Readiness
corrective actions plan will identify account definition requirements and develop a
normal balance indicator. Based on the results of the plan, the indicator may or may
not incorporate the inflation key data field.

Our Response
Comments from the Deputy Director for Finance were responsive. No further
comments are required.




                                         30
Appendix A. Scope and Methodology
We conducted this performance audit from December 2011 through January 2013 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

We reviewed DLA procedures developed to establish and maintain the EBS general
ledger as well as the processes followed by the personnel with the Offices of the
USD(C)/CFO and DCMO to ensure EBS complied with DoD policies and regulations.
We reviewed Pre-Certification Authority and IRB documentation for SFIS related
actions and decisions. We interviewed personnel from the Offices of USD(C)/CFO,
DCMO, DLA Finance, and DLA Information Operations in Fort Belvoir, Virginia, and
DFAS Columbus, Ohio.

From DLA, we obtained the EBS chart of accounts in use during FY 2012. We non-
statistically reviewed trial balance files submitted to DFAS Columbus. Specifically,
we reviewed trial balances compiled by DFAS for December 2011 to determine
whether EBS complied with the USSGL at the transaction level. We selected these
data files because they showed how DFAS used the trial balances to populate the
general ledger accounts on the quarterly financial statements. In February 2012, we
also observed the Office of DCMO’s BEA 8.0 assessment of EBS, which determined
whether EBS had the functional capability to comply with SFIS requirements. We
monitored the assessment through July 31, 2012. In addition, we obtained
documentation on how EBS records and reports attributes at the transaction level.

We compared the DoD SCOA and SFIS Transaction Library to requirements
contained in the Supplement to determine whether proper SFIS implementation
ensures compliance with the USSGL at the transaction level. We determined whether
EBS complied with the SFIS and USSGL by comparing the EBS chart of accounts to
the DoD SCOA and the SFIS Transaction Library. Specifically, we determined
whether:

    •   the EBS chart of accounts contained all the GLACs required by the DoD
        SCOA to support DLA General Fund and Working Capital Fund business
        processes, including proper nomenclature and normal balances,
    •   EBS posted transactions using the mandatory SFIS attributes and posting
        logic, and
    •   EBS GLACs were crosswalked to the correct DoD SCOA GLACs for
        financial reporting.

We reviewed the January 31, 2012, and May 31, 2012, transactions supporting
21 EBS posting accounts to determine the significance on Federal Agency Centralized
Trial-Balance System (FACTS) I and II reporting of not properly recording the

                                           31
business rules. We also analyzed the December 2011 trial balances to identify
abnormal GLAC balances. We reviewed the EBS SCR designed to implement SFIS
to determine whether the request, if implemented, would give EBS the ability to be
SFIS compliant. We reviewed procedures followed by DFAS Columbus,
Departmental Reporting and Account Maintenance and Control Directorates
personnel during the monthly financial reporting process to determine the type,
quantity, and value of manual journal vouchers prepared for DLA; where DFAS
obtained the source data for the vouchers; and why adjusting the EBS trial balance
data manually.

We considered the following laws, regulations, and policies in evaluating DLA and
DoD procedures, the EBS GLAC structure, and EBS SFIS compliance.

   •   10 U.S.C. Section 1005
   •   10 U.S.C. Section 2222
   •   FFMIA
   •   Public law 97-255, Federal Managers’ Financial Integrity Act of 1982
   •   OMB Circular A-127
   •   DoD FMR, volumes 1 and 6B
   •   U.S. Treasury Financial Manual, USSGL Supplement
   •   DoD SCOA
   •   SFIS Transaction Library
   •   USD(C)/CFO memorandum, “Standard Financial Information Structure (SFIS)
       Implementation Policy,” August 4, 2005
   •   Acting Deputy Chief Financial Officer memorandum, “DoD Standard Chart of
       Accounts in Standard Financial Information Structure (SFIS),” August 13,
       2007

Use of Computer-Processed Data
To perform this audit, we used EBS trial balance data and summary trial balances
compiled by DFAS Columbus as of December 2011. Specifically, we reviewed trial
balance data files to analyze them for abnormal account balances, missing accounts,
and missing attributes. We used this information to determine whether EBS
implemented SFIS and USSGL requirements. We also reviewed the manual journal
vouchers used to adjust the EBS data that DFAS Columbus personnel input monthly to
identify the types of vouchers prepared and their purpose. We used this information to
identify which USSGL accounts the vouchers affected and determine whether EBS
had the capability to populate these accounts. We believe the computer-processed data
we used were sufficiently reliable to support the findings and conclusions in this
report.

Use of Technical Assistance
We did not use technical assistance during the audit.



                                          32
Appendix B. Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) and the
Department of Defense Inspector General (DoD IG) issued 11 reports discussing EBS
and other ERP systems compliance with USSGL and FFMIA and their ability to
record financial transactions according to accounting standards. Unrestricted GAO
reports can be accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG
reports can be accessed at http://www.dodig.mil/audit/reports.

GAO
Report No. GAO-12-685, “DoD Business System Modernization: Governance
Mechanisms for Implementing Management Controls Need to Be Improved,”
June 1, 2012

Report No. GAO-12-177T, “DoD Financial Management: Challenges in the
Implementation of Business Systems Could Impact Audit Readiness Efforts,”
October 27, 2011

Report No. GAO-11-53, “DoD Business Transformation: Improved Management
Oversight of Business System Modernization Efforts Needed,” October 7, 2010

Report No. GAO-10-808, “Financial Management Systems: Experience with Prior
Migration and Modernization Efforts Provides Lessons Learned for New Approach,”
September 8, 2010

DoD IG
Report No. DODIG-2012-140, “An Unreliable Chart of Accounts Affected
Auditability of Defense Enterprise Accounting and Management System Financial
Data,” September 28, 2012

Report No. DODIG-2012-111, “Enterprise Resource Planning Systems Schedule
Delays and Reengineering Weaknesses Increase Risks to DoD’s Auditability Goals,”
July 13, 2012

Report No. DODIG-2012-066, “General Fund Enterprise Business System Did Not
Provide Required Financial Information,” March 26, 2012

Report No. DODIG-2012-051, “Navy Enterprise Resource Planning System Does Not
Comply With the Standard Financial Information Structure and U.S. Government
Standard General Ledger,” February 13, 2012

Report No. D-2011-015, “Insufficient Governance Over Logistics Modernization
Program System Development,” November 2, 2010

Report No. D-2008-096, “Identification and Reporting of Improper Payments by the
Defense Logistics Agency,” May 20, 2008

                                         33
Report No. D-2008-081, “Controls Over the Reconciliation of Defense Logistics
Agency Non-Energy Inventory Balances,” April 25, 2008




                                        34
Appendix C. Congressional Request Letter




                   35
Appendix D. SFIS Business Rules Not
Configured in EBS Correctly
During a DCMO assessment conducted from February 2012 through August 2012,
EBS could not demonstrate the ability to populate 99 business rules supporting 41 of
the 55 SFIS attributes, applicable to DLA business activities, correctly. The following
table identifies the 41 attributes and the 99 associated business rules.

          Table. SFIS Attributes With Noncompliant Business Rules
Attribute    SFIS        Attribute      Business         Business Rule
 Count     Attribute       Name          Rule
           Number                       Number
1            A11          Advance Flag          185581     Advance Flag Code used for
                          Code                             general ledger posting,
                                                           financial reporting, and
                                                           budgetary control.
2            A5           Apportionment         185563     Apportionment Category
                          Category Code                    Code used for accounting
                                                           classification, general ledger
                                                           posting, financial reporting,
                                                           budgetary control, and funds
                                                           control.
3            CA12         Asset Unique          183099     Each Item Unique Identifier
                          Identification                   construct may be enterprise
                                                           or part number serialized.
             CA12         Asset Unique          183100     For items that are enterprise
                          Identification                   serialized, achieve unique
                                                           identification by a
                                                           combination of the issuing
                                                           agency code, enterprise
                                                           identifier and the serial
                                                           number, which must be
                                                           unique within the enterprise
                                                           identifier.
             CA12         Asset Unique          183101     For items that are part
                          Identification                   number serialized, achieve
                                                           unique identification by a
                                                           combination of the issuing
                                                           agency code, enterprise
                                                           identifier, the original part
                                                           number, and the serial
                                                           number.




                                           36
              SFIS                            Business
Attribute   Attribute      Attribute            Rule
 Count      Number          Name              Number             Business Rule
            CA12        Asset Unique           183102    Each Real Property Unique
                        Identification                   Identifier must be an
                                                         18-character integer.
            CA12        Asset Unique          183103     At creation, the Web based
                        Identification                   system-generated Real
                                                         Property Unique Identifier
                                                         non-intelligent identifier
                                                         must be validated and cross-
                                                         referenced to prevent
                                                         duplication.
            CA12        Asset Unique          183104     The Real Property Unique
                        Identification                   Identifier must not contain
                                                         spaces, hyphens, or other edit
                                                         characters.
            CA12        Asset Unique          183105     Real Property Unique
                        Identification                   Identifier may be referenced
                                                         in a parent-child relationship
                                                         to other Real Property
                                                         Unique Identifiers for related
                                                         subsets of assets, as needed
                                                         for data linkages.
            CA12        Asset Unique          185730     Asset Unique Identification
                        Identification                   must be a maximum of
                                                         50-alphanumeric characters.
            CA12        Asset Unique          185731     Use Asset Unique
                        Identification                   Identification for asset
                                                         accountability.
            CA12        Asset Unique          185732     Each accounting system
                        Identification                   must store and maintain
                                                         Asset Unique Identification
                                                         values.
4           A12         Authority Type        185584     Use Authority Type Code for
                        Code                             accounting classification,
                                                         general ledger posting,
                                                         financial reporting,
                                                         budgetary control, and funds
                                                         control.




                                         37
              SFIS                            Business
Attribute   Attribute     Attribute             Rule
  Count     Number          Name              Number             Business Rule
5           A13         Availability           185587    Use Availability Time
                        Time Indicator                   Indicator for financial
                                                         reporting and budgetary
                                                         control.
            A13         Availability          185588     Derivation of Availability
                        Time Indicator                   Time Indicator based on an
                                                         examination of the Period of
                                                         Availability Fiscal Year Date
                                                         associated with an
                                                         appropriation against the
                                                         current accounting period is
                                                         an acceptable practice within
                                                         each accounting system.
6           B9          Budget                185650     Use Budget Enforcement Act
                        Enforcement                      Category Indicator for
                        Act Category                     accounting classification and
                        Indicator Code                   financial reporting.
7           T4          Begin/End             185670     Begin/End Indicator must be
                        Indicator                        one alpha character.
            T4          Begin/End             185671     Use Begin/End Indicator for
                        Indicator                        financial reporting.
8           A27         Beginning             720603     If used for Annual or Multi-
                        Period of                        Year funding, Beginning
                        Availability                     Period of Availability must
                                                         be four alphanumeric
                                                         characters.
            A27         Beginning             720604     If used for No-Year funding,
                        Period of                        Beginning Period of
                        Availability                     Availability must be four
                                                         alphanumeric characters.
            A27         Beginning             720605     If used for Annual or Multi-
                        Period of                        Year funding, use the
                        Availability                     Beginning Period of
                                                         Availability for accounting
                                                         classification, financial
                                                         reporting, budgetary control,
                                                         and funds control.




                                         38
              SFIS                             Business
Attribute   Attribute     Attribute              Rule
  Count     Number          Name               Number              Business Rule
9           A14         Borrowing               185590    Use Borrowing Source Code
                        Source Code                       for general ledger posting,
                                                          financial reporting, and
                                                          budgetary control.
10          B2          Budget                 000000     Use Budget Activity Identifier
                        Activity                          for financial reporting,
                        Identifier                        budgetary control, and funds
                                                          control.
            B2          Budget                 185631     Budget Activity Identifier
                        Activity                          must be two numeric
                        Identifier                        characters.
            B2          Budget                 185633     Each accounting system must
                        Activity                          store and maintain Budget
                        Identifier                        Activity Identifier values.
            B2          Budget                 190058     A Budget Activity Identifier
                        Activity                          must be associated to the
                        Identifier                        accounting classification
                                                          structure when the President
                                                          signs the appropriation and
                                                          maintained until the
                                                          cancellation of available
                                                          funding.
11          B1          Budget                 185629     Use Budget Function/Sub-
                        Function/Sub-                     Function Code for general
                        Function Code                     ledger posting and financial
                                                          reporting.
12          B4          Budget Line            185637     Budget Line Item Identifier
                        Item Identifier                   may be up to 16-alphanumeric
                                                          characters.

            B4          Budget Line            185638     Use Budget Line Item
                        Item Identifier                   Identifier for accounting
                                                          classification, financial
                                                          reporting, budgetary control,
                                                          and funds control.




                                          39
              SFIS                             Business
Attribute   Attribute      Attribute             Rule
 Count      Number          Name               Number             Business Rule
            B4          Budget Line             185639    Each accounting system
                        Item Identifier                   must store and maintain
                                                          Budget Line Item Identifier
                                                          values.
            B4          Budget Line            190060     Establish a Budget Line Item
                        Item Identifier                   Identifier in the accounting
                                                          classification structure when
                                                          the President signs the
                                                          appropriation and maintain
                                                          until cancellation of
                                                          available funding.
13          B3          Budget Sub             185634     Budget Sub Activity
                        Activity                          Identifier must be a
                        Identifier                        maximum of six numeric
                                                          characters.
            B3          Budget Sub             185635     Use the Budget Sub Activity
                        Activity                          Identifier for financial
                        Identifier                        reporting and funds control.
            B3          Budget Sub             185636     Each accounting system
                        Activity                          must store and maintain
                        Identifier                        Budget Sub Activity
                                                          Identifier values.
            B3          Budget Sub             190062     Establish a Budget Sub
                        Activity                          Activity Identifier in the
                        Identifier                        accounting classification
                                                          structure when the President
                                                          signs the appropriation and
                                                          maintain until cancelation of
                                                          available funding.
14          T20         Business Event         190063     Use the Business Event Type
                        Type Code                         Code for general ledger
                                                          posting and financial
                                                          reporting.
            T20         Business Event         190064     Business Event Type Code
                        Type Code                         must be no more than eight
                                                          alpha characters.
            T20         Business Event         190065     Each system must store and
                        Type Code                         maintain Business Event
                                                          Type Code values.



                                          40
              SFIS                          Business
Attribute   Attribute     Attribute           Rule
  Count     Number          Name            Number             Business Rule
15          TP3         Business             183084    Use the Business Partner
                        Partner                        Number from the Business
                        Number                         Partner Network in
                                                       conjunction with Department
                                                       Regular Code, Main Account
                                                       Code, and Sub-Account
                                                       Code for eliminations.
            TP3         Business            185722     Use the Business Partner
                        Partner                        Number for general ledger
                        Number                         posting and financial
                                                       reporting for any transaction
                                                       involving a Federal
                                                       Government/Non-Federal
                                                       Exception vendor or
                                                       customer.
16          T12         Country Code        185692     Use the Country Code for
                                                       financial reporting.
            T12         Country Code        190066     If script independence of
                                                       Country Code is important,
                                                       then ISO 3166-1 may be
                                                       used which contains an
                                                       alpha-3 country code having
                                                       better mnemonic properties
                                                       and a numeric-3 country
                                                       code.
17          T14         Covered/            183068     If a liability is not supported
                        Uncovered                      by an appropriation as of the
                        Indicator                      fiscal year end, then it must
                                                       be classified as uncovered,
                                                       else classify as covered.
            T14         Covered/            185697     Covered/Uncovered
                        Uncovered                      Indicator must be one alpha
                        Indicator                      character.
            T14         Covered/            185698     Use the Covered/Uncovered
                        Uncovered                      Indicator for financial
                        Indicator                      reporting.
            T14         Covered/            185699     Each accounting system must
                        Uncovered                      store and maintain
                        Indicator                      Covered/Uncovered
                                                       Indicator values.

                                       41
              SFIS                             Business
Attribute   Attribute      Attribute             Rule
  Count     Number           Name              Number               Business Rule
18          T15         Current/                185700     Current/Non-Current
                        Non-current                        Indicator must be one alpha
                        Indicator                          character.
            T15         Current/               185701      Use the Current/Non-Current
                        Non-current                        Indicator for financial
                        Indicator                          reporting.
            T15         Current/               185702      Each accounting system must
                        Non-current                        store and maintain
                        Indicator                          Current/Non-Current
                                                           Indicator values.
            T15         Current/               190103      If a liability is to be
                        Non-current                        liquidated within 12 months
                        Indicator                          from the time of reporting,
                                                           then the value must be ‘C,’
                                                           else the value will be ‘N.’
19          T10         Custodial/             183064      Use the Custodial/Non-
                        Non-Custodial                      Custodial Indicator only
                        Indicator                          when recording receivable,
                                                           payable, revenue, and
                                                           expense general ledger
                                                           transactions.
            T10         Custodial/             185686      Use the Custodial/Non-
                        Non-Custodial                      Custodial Indicator for
                        Indicator                          general ledger posting and
                                                           financial reporting.
20          T3          Debit/Credit           185668     Use the Debit/Credit
                        Indicator                         Indicator for general ledger
                                                          posting and financial
                                                          reporting.
21          A2          Department             185554     Use the Department
                        Transfer Code                     Transfer Code for
                                                          accounting classification,
                                                          general ledger posting,
                                                          financial reporting,
                                                          budgetary control, and funds
                                                          control.
22          A21         Direct Transfer        183010     Post the Direct Transfer
                        Account Code                      Account Code in
                                                          conjunction with Direct
                                                          Transfer Agency.


                                          42
              SFIS                             Business
Attribute   Attribute      Attribute             Rule
 Count      Number           Name              Number             Business Rule
            A21         Direct Transfer         185608    Use the Direct Transfer
                        Account Code                      Account Code for accounting
                                                          classification, general ledger
                                                          posting, financial reporting,
                                                          and budgetary control.
23          A20         Direct Transfer        183009     Post the Direct Transfer
                        Agency Code                       Agency Code in conjunction
                                                          with Direct Transfer Account
                                                          Code.
            A20         Direct Transfer        185611     Use the Direct Transfer
                        Agency Code                       Agency Code for accounting
                                                          classification, general ledger
                                                          posting, financial reporting,
                                                          and budgetary control.
24          A28         Ending Period          720610     Ending Period of
                        of Availability                   Availability must be four
                                                          alphanumeric characters.
            A28         Ending Period          720611     If the Ending Period of
                        of Availability                   Availability is associated
                                                          with no-year funding, then it
                                                          must be ‘XXXX.’
            A28         Ending Period          720612     If used for Annual or
                        of Availability                   Multi-Year funding, use the
                                                          Ending Period of
                                                          Availability for accounting
                                                          classification, financial
                                                          reporting, budgetary control,
                                                          and funds control.
25          T13         Entity/                185695     Use the Entity/Non-Entity
                        Non-Entity                        Indicator for financial
                        Indicator                         reporting.
26          T9          Exchange/              183063     Use the Exchange/Non-
                        Non-Exchange                      Exchange Indicator only if
                        Indicator                         recording revenue general
                                                          ledger transactions.




                                          43
              SFIS                             Business
Attribute   Attribute      Attribute             Rule
 Count      Number           Name              Number             Business Rule
            T9          Exchange/               185683    Use the Exchange/Non-
                        Non-Exchange                      Exchange for general ledger
                        Indicator                         posting and financial
                                                          reporting.
27          TP1         Federal/               185716     Use the Federal/Non-Federal
                        Non-Federal                       Indicator for general ledger
                        Indicator                         posting and financial
                                                          reporting.
            TP1         Federal/               183077     If the Trading Partner
                        Non-Federal                       Number has a value,
                        Indicator                         Federal/Non-Federal
                                                          Indicator value must be 'F'.
28          T22         Foreign                190071     Each Foreign Military Sales
                        Military Sales                    Case Identifier must have at
                        Case Identifier                   least one Foreign Military
                                                          Sales Customer.
            T22         Foreign                190072     Each Foreign Military Sales
                        Military Sales                    Case Identifier must have at
                        Case Identifier                   least one Foreign Military
                                                          Sales Case Line Item
                                                          Identifier.
            T22         Foreign                190073     Use the Foreign Military
                        Military Sales                    Sales Case Identifier for
                        Case Identifier                   financial reporting,
                                                          budgetary control, and funds
                                                          control.
            T22         Foreign                190074     Foreign Military Sales Case
                        Military Sales                    Identifier must be three
                        Case Identifier                   alphanumeric characters.
            T22         Foreign                190075     If the system executes
                        Military Sales                    Foreign Military Sales
                        Case Identifier                   transactions, then each
                                                          system must store and
                                                          maintain Foreign Military
                                                          Sales Case Identifier values.




                                          44
              SFIS                            Business
Attribute   Attribute      Attribute            Rule
  Count     Number           Name             Number             Business Rule
29          T23         Foreign                190079    Foreign Military Sales Case
                        Military Sales                   Line Item Identifier must be
                        Case Line Item                   associated with only one
                        Identifier                       Foreign Military Sales Case
                                                         Identifier.
            T23         Foreign               190080     Use the Foreign Military
                        Military Sales                   Sales Case Line Item
                        Case Line Item                   Identifier for financial
                        Identifier                       reporting, budgetary control,
                                                         and funds control.
            T23         Foreign               190081     Foreign Military Sales Case
                        Military Sales                   Line Item Identifier must be
                        Case Line Item                   three alphanumeric
                        Identifier                       characters.

            T23         Foreign               190082     If the system executes
                        Military Sales                   Foreign Military Sales
                        Case Line Item                   transactions, then each
                        Identifier                       system must store and
                                                         maintain Foreign Military
                                                         Sales Case Line Item
                                                         Identifier values.
30          T21         Foreign               190076     Use the Foreign Military
                        Military Sales                   Sales Customer Code for
                        Customer Code                    financial reporting,
                                                         budgetary control, and funds
                                                         control.
            T21         Foreign               190077     Foreign Military Sales
                        Military Sales                   Customer Code must be two
                        Customer Code                    alphanumeric characters.
            T21         Foreign               190078     If the system executes
                        Military Sales                   Foreign Military Sales
                        Customer Code                    transactions, then each
                                                         system must store and
                                                         maintain the Foreign
                                                         Military Sales Customer
                                                         Code values.




                                         45
              SFIS                            Business
Attribute   Attribute     Attribute             Rule
  Count     Number          Name              Number             Business Rule
31          A10         Fund Type              185578    Use the Fund Type Code for
                        Code                             general ledger posting,
                                                         financial reporting,
                                                         budgetary control, and funds
                                                         control.
32          A3          Main Account          185557     Use the Main Account Code
                        Code                             for accounting
                                                         classification, general ledger
                                                         posting, financial reporting,
                                                         budgetary control, and funds
                                                         control.
33          B6          Object Class          183026     Use the OMB designated
                        Code                             object classification codes
                                                         when posting general ledger
                                                         transaction to record the
                                                         effect of budgetary
                                                         expenditures.
            B6          Object Class          183028     Use the Object Class Codes
                        Code                             to present obligations by the
                                                         items or services purchased
                                                         by the Government.
            B6          Object Class          185644     Use the Object Class Code
                        Code                             for financial reporting.


34          A6          Receipt               185566     Use the Receipt Indicator
                        Indicator                        for accounting classification
                                                         and financial reporting.
35          A9          Reimbursable          185575     Use the Reimbursable Flag
                        Flag Indicator                   Indicator for financial
                                                         reporting and budgetary
                                                         funds.
36          A7          Sub Class             185568     Sub-Class must be two
                        Code                             numeric characters.


            A7          Sub Class             185569     Use the Sub Class Code for
                        Code                             accounting classification
                                                         and financial reporting.




                                         46
              SFIS                          Business
Attribute   Attribute     Attribute           Rule
  Count     Number          Name            Number             Business Rule
37          A4          Sub-Account          185560    Use the Sub-Account Code
                        Code                           for accounting
                                                       classification, general
                                                       ledger posting, financial
                                                       reporting, budgetary
                                                       control, and funds control.
38          TP2         Trading Partner     185719     Use the Trading Partner
                        Indicator Code                 Indicator Code for general
                                                       ledger posting and financial
                                                       reporting.
            TP2         Trading Partner     183078     A Trading Partner Indicator
                        Indicator Code                 Code value is required,
                                                       whenever the trading
                                                       partner is a federal entity.
39          T1          Transaction         185663     Each accounting system
                        Type Code                      must maintain a chart of
                                                       accounts and utilize general
                                                       ledger posting logic that
                                                       attains the same results as
                                                       the USSGL Transaction
                                                       Library.
            T1          Transaction         190093     Different Transaction Type
                        Type Code                      Code values may be used
                                                       only if the accounting
                                                       system is posting all
                                                       applicable transactions
                                                       using compliant general
                                                       ledger posting logic
40          T2          USSGL/DoD           183047     Each General Ledger
                        Account Code                   Account in the Accounting
                                                       System must be associated
                                                       with one and only one
                                                       USSGL Account




                                       47
              SFIS                            Business
Attribute   Attribute     Attribute             Rule
 Count      Number          Name              Number             Business Rule
            T2          USSGL/DoD              185664    All general ledger accounts
                        Account Code                     within the accounting
                                                         system used for posting
                                                         must begin with a valid
                                                         four-digit USSGL account
                                                         number, but may be
                                                         extended up to 10
                                                         alphanumeric characters.
                                                         Ex. 1010.1000A
            T2          USSGL/DoD             185665     A “Reporting” Chart of
                        Account Code                     Accounts must exist within
                                                         the accounting system
                                                         which enforces the
                                                         following: Every “Posting”
                                                         general ledger account must
                                                         roll up to, or be subordinate
                                                         to one and only one GLAC
                                                         within the DoD SCOA with
                                                         this linkage occurring at
                                                         “time of transaction.”
            T2          USSGL/DoD             185666     The system Reporting Chart
                        Account Code                     of Accounts must contain
                                                         only accounts contained
                                                         within the current Office of
                                                         Secretary of Defense
                                                         Comptroller Memorandum
                                                         identifying the individual
                                                         accounts within the
                                                         Reporting Chart of
                                                         Accounts.
41          A19         Year of Budget        185604     Year of Budget Authority
                        Authority                        Indicator must be three
                        Indicator                        alpha characters.




                                         48
              SFIS                            Business
Attribute   Attribute      Attribute            Rule
 Count      Number           Name             Number            Business Rule
            A19         Year of Budget         185605    Use the Year of Budget
                        Authority                        Authority Indicator for
                        Indicator                        general ledger posting and
                                                         financial reporting.
            A19         Year of Budget        185606     Derivation of Year of
                        Authority                        Budget Authority Indicator
                        Indicator                        based on a comparison of
                                                         the current reporting period
                                                         date against the budget
                                                         program year is an
                                                         acceptable practice within
                                                         the accounting system,
                                                         however, use the same data
                                                         used for the derivation to
                                                         support general ledger
                                                         posting logic.




                                         49
Appendix E. Review of EBS Attributes
We reviewed 21 EBS posting accounts to determine whether they accurately recorded
the attributes needed to support USSGL FACTS I and II reporting. We reviewed these
accounts as of January 31, 2012, and determined that 18 of the 21 accounts were not
accurately recording the required attributes for reporting FACTS I and II data.
Subsequently, EBS program managers informed us that they had corrected many of
the errors after January 31, 2012. We retested the 21 accounts as of May 31, 2012,
and found that 17 of the accounts continued to report incorrect data. Three of the
accounts have an impact on the Statement of Budgetary Resources. The following
table identifies the 21 EBS posting accounts, the number of attributes tested for each
GLAC, and the number of attributes that did not comply with USSGL FACTS I and II
reporting requirements at the transaction level.

                             Table. EBS Attributes Reviewed

                                                                 Attributes
                                                Attributes          Not                    Attributes
                            Compliant           Required         Compliant                    Not
                           With USSGL              for              as of                  Compliant
             EBS            Reporting           Financial         January                    as of
Count       GLAC           Requirements         Reporting           2012                   May 2012 *
1          1010.0100           No                   6                 1                      -
2          1310.0100           No                   4                 3                      1
3          1410.0100           Yes                  3                 0                      0
4          2110.0100           No                   4                 3                      2
5          2310.0101           No                   3                 1                      1
6          3102.0100           No                   2                 2                      -
7          3103.0100           No                   2                 2                      -
8          4032.0100           Yes                  4                 2                      0
9          4221.0100           No                   6                 2                      2
10         4610.0100           No                   7                 2                      1
11         4801.2600           No                   9                 5                      4
12         5100.0100           No                   4                 1                      1
13         5109.0900           No                   4                 1                      1
14         5310.0100           No                   6                 1                      1




*
 Dash means that no transactions were available for this month. For those accounts, our conclusions
are based on the January 2012 data.


                                                50
                                                 Attributes
                                    Attributes      Not       Attributes
                      Compliant     Required     Compliant       Not
                     With USSGL        for          as of     Compliant
           EBS        Reporting     Financial     January     as of May
Count     GLAC       Requirements   Reporting       2012         2012
15       6100.0100       No             3             1            2
16       6400.1210       No              4           2            2
17       6720.0100       No              4           1            _
18       7110.0200       No              5           2            2
19       7190.0130       No              6           3            3
20       8801.0200       Yes             2           0            0
21       8803.0300       Yes             2           0            0
Totals                                   90         35           23




                                    51
Appendix F. Missing DoD Standard
Reporting Accounts
The development of an EBS chart of accounts capable of recording all DLA business
events is essential to achieving and maintaining FFMIA compliance. The
USD(C)/CFO issued a DoD SCOA to identify the reporting chart of accounts needed
to conduct business events within DoD. As an ERP system that will record both
general fund and working capital fund business activities, EBS should have been
capable of reporting 693 specific accounts contained in the DoD SCOA. The
following table identifies the 241 DoD SCOA accounts that were not contained in the
EBS chart of accounts.
                   Table.   Missing DoD Reporting Accounts
               DoD
             Reporting
 Count        Account                   DoD Reporting Account Title
 1         1010.9000        Fund Balance With Treasury
 2         1125.9000        U.S. Debit Card Funds
 3         1310.0100        Accounts Receivable-Vendor Overpayment-
                            Capitalized Purchase
 4         1310.0200        Accounts Receivable-Vendor Overpayment
 5         1310.0910        Accounts Receivable-Undistributed Collections-
                            Appropriation Level
 6         1310.0920        Accounts Receivable-Undistributed Collections-
                            Component Level
 7         1310.0930        Accounts Receivable-Undistributed Collections-
                            Business Area Level
 8         1310.0940        Accounts Receivable-Undistributed Collections-
                            Installation Level
 9         1310.0950        Accounts Receivable-Unsupported Undistributed
                            Collections-Department Level
 10        1340.0100        Interest Receivable -Interest Purchased
 11        1341.8100        Interest Receivable – Military Housing Privatization
                            Initiative Loans
 12        1341.8200        Interest Receivable - Armament Retooling and
                            Manufacturing Support Loans
 13        1341.8410        Interest Receivable - Foreign Military Loan
                            Liquidating Account Loans
 14        1341.8510        Interest Receivable - Military Debt Reduction
                            Financing Account Loans




                                        52
            DoD
          Reporting
Count      Account               DoD Reporting Account Title
15      1342.9000     Interest Receivable – Investments
16      1345.8100     Allowance for Loss on Interest Receivable - Military
                      Housing Privatization Initiative Loans
17      1345.8200     Allowance for Loss on Interest Receivable -
                      Armament Retooling and Manufacturing Support
                      Loans
18      1345.8410     Allowance for Loss on Interest Receivable - Foreign
                      Military Loan Liquidating Account Loans
19      1346.9000     Allowance for Loss on Interest Receivable –
                      Investments
20      1347.9000     Allowance for Loss on Interest Receivable - Not
                      Otherwise Classified
21      1350.8100     Loans Receivable-Military Housing
22      1350.8200     Loans Receivable- Armament Retooling and
                      Manufacturing Support Loans Program
23      1350.8410     Loans Receivable- Foreign Military Loan
                      Liquidating Account
                      - Pre-FY1992
24      1350.8510     Loans Receivable- Military Debt Reduction
                      Financing Account Post FY1991
25      1351.9000     Capitalized Loan Interest Receivable - Non-Credit
                      Reform
26      1359.8100     Allowance for Loss on Loans Receivable-Military
                      Housing
27      1359.8200     Allowance for Loss on Loans Receivable-
                      Armament Retooling and Manufacturing Support
                      Loans Program
28      1359.8410     Allowance for Loss on Loans Receivable- Foreign
                      Military Loan Liquidating Account -Pre-FY1992
29      1361.8100     Penalties and Fines Receivable - Loans-Military
                      Housing
30      1361.8200     Penalties and Fines Receivable - Loans- Armament
                      Retooling and Manufacturing Support Loans
                      Program




                                 53
            DoD
         Reporting
Count     Account                DoD Reporting Account Title
31      1361.8410    Penalties and Fines Receivable - Loans- Foreign
                     Military Loan Liquidating Account - Pre FY1992
32      1361.8510    Penalties and Fines Receivable - Loans- Military
                     Debt Reduction Financing Account - Post FY1991
33      1365.8100    Allowance for Loss on Penalties and Fines
                     Receivable – Military Housing Privatization Initiative
                     Loans-Military Housing
34      1365.8200    Allowance for Loss on Penalties and Fines
                     Receivable - Armament Retooling and Manufacturing
                     Support Loans-Loans Program
35      1365.8410    Allowance for Loss on Penalties and Fines
                     Receivable - Foreign Military Loan Liquidating
                     Account Loans- Pre FY1992
36      1367.9000    Allowance for Loss on Penalties and Fines
                     Receivable - Not Otherwise Classified
37      1370.9000    Administrative Fees Receivable - Not Otherwise
                     Classified
38      1371.9000    Administrative Fees Receivable – Loans
39      1375.9000    Allowance for Loss on Administrative Fees
                     Receivable – Loans
40      1377.9000    Allowance for Loss on Administrative Fees
                     Receivable - Not Otherwise Classified
41      1399.8100    Allowance for Subsidy-Military Housing
42      1399.8200    Allowance for Subsidy- Armament Retooling and
                     Manufacturing Support Loans Program
43      1399.8510    Allowance for Subsidy - Military Debt Reduction
                     Financing Account - Post FY1991
44      1519.0100    Operating Materials and Supplies - Allowance -
                     Excess, Obsolete and Unserviceable
45      1519.0200    Operating Materials and Supplies - Allowance -Held
                     for Repair
46      1519.9000    Operating Materials and Supplies – Allowance
47      1522.0100    Inventory Held in Reserve for Future Sale-War
                     Reserve
48      1523.0100    Inventory Held for Repair -Inventory In-Transit




                                  54
            DoD
          Reporting
Count      Account                DoD Reporting Account Title
49      1525.0100     Inventory - Raw Materials-Inventory In-Transit
50      1526.0100     Inventory - Work-in-Process-Work For Activity
                      Retention
51      1527.0100     Inventory - Finished Goods-Inventory In-Transit
52      1529.0810     Inventory - Allowance-Available and Purchased for
                      Resale
53      1529.0830     Inventory - Allowance-Finished Goods
54      1529.0850     Inventory - Allowance-Held for Reserve for Future
                      Sale
55      1529.0860     Inventory - Allowance-Raw Material
56      1529.0870     Inventory - Allowance-Work in Progress
57      1529.0910     Inventory - Allowance-Material Returns, Estimated
                      Repair and Exchange Cost (Supply Management
                      Only)
58      1529.0920     Inventory - Allowance-Available and Purchased for
                      Resale-Purchased at Cost
59      1551.8100     Foreclosed Property - Military Housing
60      1559.8100     Foreclosed Property - Allowance - Military Housing
61      1613.0600     Amortization of Premium on U.S. Treasury
                      Securities Issued by the Bureau of the Public Debt-
                      Non-Marketable Market Based- Premium
62      1690.0700     Other Investments – Military Housing Privatization
                      Initiative- Limited Partnership
63      1720.0200     Construction –in-Progress-Facilities
64      1720.0500     Construction-in-Progress-Current Year Transfers
65      1750.1000     Equipment-Military Equipment
66      1759.1000     Accumulated Depreciation on Equipment-Military
                      Equipment
67      1810.0200     Assets Under Capital Lease -Machinery and
                      Equipment
68      1990.0100     Other Assets-Contract Financing Payments
69      2110.0300     Accounts Payable-Judgment Fund- Contract
                      Disputes Act
70      2110.0400     Accounts Payable-Judgment Fund- No Fear




                                 55
            DoD
          Reporting
Count      Account                DoD Reporting Account Title
71      2110.0950     Accounts Payable-Unsupported Undistributed
                      Disbursements-Department Level
72      2110.2100     Accounts Payable-Undistributed Disbursements-
                      Appropriation Level
73      2110.2200     Accounts Payable-Undistributed Disbursements-
                      Component Level
74      2110.2300     Accounts Payable-Undistributed Disbursements-
                      Business Area Level
75      2110.2400     Accounts Payable-Undistributed Disbursements-
                      Installation Level
76      2140.0200     Accrued Interest Payable-Not Otherwise Classified-
                      Prompt Payment Act Interest
77      2141.9000     Accrued Interest Payable – Debt
78      2190.0100     Other Liabilities with Related Budgetary
                      Obligations - Accrued Liabilities-Judgment Fund-
                      Contract Disputes Act
79      2190.0400     Other Liabilities with Related Budgetary
                      Obligations - Estimate Subsidy
80      2190.0500     Other Liabilities with Related Budgetary
                      Obligations – Incurred but Not Reported
81      2190.0600     Other Liabilities with Related Budgetary
                      Obligations - Temporary Early Retirement
82      2191.9000     Employee Health Care Liability Incurred but Not
                      Reported
83      2213.9000     Employer Contributions and Payroll Taxes Payable
84      2215.0100     Other Post-Employment Benefits Due and Payable-
                      Unemployment
85      2220.9000     Unfunded Leave
86      2310.0400     Liability for Advances and Prepayments - Progress
                      Billings
87      2410.9000     Liability for Clearing Accounts
88      2511.9000     Capitalized Loan Interest Payable - Non-Credit
                      Reform
89      2610.0200     Actuarial Pension Liability-Pension
90      2620.0200     Actuarial Health Insurance Liability-Medicare




                                 56
            DoD
         Reporting
Count     Account            DoD Reporting Account Title
91      2690.0100    Other Actuarial Liabilities-DoD Education
                     Benefits Fund
92      2690.0200    Other Actuarial Liabilities-Medicare
93      2690.0300    Other Actuarial Liabilities-Voluntary
                     Separation Incentive Trust Fund
94      2985.0100    Liability for Non-Entity Assets Not Reported
                     on the Statement of Custodial Activity -
                     Disbursing Officer Cash
95      2990.0300    Other Liabilities Without Related Budgetary
                     Obligations -Judgment Fund- Contract
                     Disputes Act
96      2990.0400    Other Liabilities Without Related Budgetary
                     Obligations -Judgment Fund- No FEAR
97      2990.0500    Other Liabilities Without Related Budgetary
                     Obligations -Military Equipment
98      2990.0600    Other Liabilities Without Related Budgetary
                     Obligations -Temporary Early Retirement
99      2990.0700    Other Liabilities Without Related Budgetary
                     Obligations - Seized Monetary Instruments
100     2995.9501    Estimated Cleanup Cost Liability- Other
                     Accrued Environmental Liability Active
                     Installations – Other
101     2995.9502    Estimated Cleanup Cost Liability- Base
                     Realignment and Closure - Environmental
                     Corrective Actions/Closure Requirements
102     2995.9503    Estimated Cleanup Cost Liability-estimated
                     Liability for Other Nuclear Powered Ships
                     under the Environmental Disposal for Military
                     Equipment/ Weapons Program
103     2995.9504    Estimated Cleanup Cost Liability- estimated
                     Liability for Other National Defense Weapons
                     Systems under the Environmental Disposal
                     for Military Equipment/ Weapons Program




                                 57
            DoD
          Reporting
Count      Account                DoD Reporting Account Title
104     2995.9505     Estimated Cleanup Cost Liability- estimated
                      Liability for Other Weapons Systems (weapon
                      systems not otherwise identified as National Defense
                      Weapons Systems) for Military Equipment/
                      Weapons Program
105     2995.9506     Estimated Cleanup Cost Liability- estimated
                      Liability for Nuclear Powered Submarines under the
                      Environmental Disposal for Military Equipment/
                      Weapons Program for projected cleanup costs
106     2995.9507     Estimated Cleanup Cost Liability- Base
                      Realignment and Closure –Other
107     2995.9508     Estimated Cleanup Cost Liability-Chemical
                      Weapons Disposal Program - Chemical Agent and
                      Munitions Destruction
108     2995.9509     Estimated Cleanup Cost Liability- Accrued
                      Environmental Liabilities on Formerly Used
                      Defense Sites for projected cleanup costs of
                      Installation Restoration Program and Building
                      Demolition and Debris Removal
109     2995.9510     Estimated Cleanup Cost Liability- estimated
                      Liability for Nuclear Powered Aircraft Carriers
                      under the Environmental Disposal for Military
                      Equipment/ Weapons Program for projected cleanup
                      costs
110     2995.9511     Estimated Cleanup Cost Liability- estimated
                      Accrued Environmental Liabilities on Active
                      Installations for projected cleanup costs of
                      Installation Restoration Program and Building
                      Demolition and Debris Removal
111     2995.9512     Estimated Cleanup Cost Liability- estimated
                      Accrued Environmental Liabilities on Active
                      Installations for projected cleanup costs under the
                      Military Munitions Response Program
112     2995.9513     Estimated Cleanup Cost Liability Base Realignment
                      and Closure - Installation Restoration Program




                                  58
            DoD
         Reporting
Count     Account                DoD Reporting Account Title
113     2995.9514    Estimated Cleanup Cost Liability- Base Realignment
                     and Closure – Military Munitions Response Program
114     2995.9515    Estimated Cleanup Cost Liability-mated Accrued
                     Environmental Liabilities on Formerly Used Defense
                     Sites for projected cleanup costs under the Military
                     Munitions Response Program
115     2995.9517    Estimated Cleanup Cost Liability- Other Accrued
                     Environmental Liability Active Installations Non-
                     Base Realignment and Closure - Environmental
                     Closure Requirements
116     2995.9518    Estimated Cleanup Cost Liability- Other Accrued
                     Environmental Liability Active Installations Non
                     Base Realignment and Closure - Environmental
                     Response at Operational Ranges
117     2995.9521    Estimated Cleanup Cost Liability- Other Accrued
                     Environmental Liability Active Installations Non-
                     Base Realignment and Closure – Asbestos
118     2995.9522    Estimated Cleanup Cost Liability- Other Accrued
                     Environmental Liability Active Installations Non-
                     Base Realignment and Closure - Non-Military
                     Equipment
119     2995.9523    Estimated Cleanup Cost Liability-Base Realignment
                     and Closure – Asbestos
120     2995.9524    Estimated Cleanup Cost Liability- Base Realignment
                     and Closure - Non-Military Equipment
121     2995.9525    Estimated Cleanup Cost Liability-EDWSP - Non-
                     Nuclear Powered Equipment
122     2995.9526    Estimated Cleanup Cost Liability-Chemical Weapons
                     Disposal Program - Chemical Agent Munitions
                     Disposal Demilitarization - Assembled Chemical
                     Weapons Alternatives
123     2995.9527    Estimated Cleanup Cost Liability-Chemical Weapons
                     Disposal Program – Other




                                  59
            DoD
          Reporting
Count      Account               DoD Reporting Account Title
124     2995.9528     Estimated Cleanup Cost Liability-estimated
                      Liability for Nuclear Powered Military Equipment
                      (other than Nuclear Powered Ships, Submarines
                      and Aircraft Carriers) and Spent Nuclear Fuel under
                      the Environmental Disposal for Military
                      Equipment/ Weapons Program
125     3105.9000     Unexpended Appropriations - Prior Period
                      Adjustments Due to Corrections of Errors - Years
                      Preceding the Prior Year
126     3400.9000     Fiduciary Net Assets
127     3410.9000     Contributions to Fiduciary Net Assets
128     3420.9000     Withdrawals or Distributions of Fiduciary Net
                      Assets
129     4048.9000     Anticipated Transfers to the General Fund of the
                      Treasury - Prior-Year Balances
130     4119.0600     Other Appropriations Realized - Undistributed
                      Authority-Undistributed Unobligated Balance
131     4170.0600     Transfers - Current-Year Authority Transfers In -
                      Undistributed Authority-Undistributed Unobligated
                      Balance
132     4170.0610     Transfers - Current-Year Authority Transfers Out -
                      Undistributed Authority-Undistributed Unobligated
                      Balance
133     4170.3103     Transfers - Current-Year Authority Transfers Out
134     4176.0600     Allocation Transfers of Prior-Year Balances -
                      Undistributed Authority-Undistributed Unobligated
                      Balance
135     4183.9000     Anticipated Balance Transfers - Unobligated
                      Balances - Legislative Change of Purpose
136     4190.0600     Transfers - Prior-Year Balances Transferred In -
                      Undistributed Authority-Undistributed Unobligated
                      Balance
137     4190.0610     Transfers - Prior-Year Balances Transferred Out -
                      Undistributed Authority-Undistributed Unobligated
                      Balance
138     4190.3103     Transfers - Prior-Year Balances Transfers Out
139     4192.9000     Balance Transfers - Unexpired to Expired



                                 60
            DoD
          Reporting
Count      Account               DoD Reporting Account Title
140     4193.9000     Balance Transfers - Unobligated Balances -
                      Legislative Change of Purpose
141     4201.4350     Total Actual Resources - Cancelled Appropriation
142     4208.9000     Adjustment to Total Resources - Disposition of
                      Canceled Payables
143     4251.0700     Reimbursements and Other Income Earned -
                      Receivable – Undistributed
144     4252.0700     Reimbursements and Other Income Earned -
                      Collected – Undistributed
145     4253.9000     Prior-Year Unfilled Customer Orders With
                      Advance - Refunds Paid
146     4266.0700     Other Actual Business-Type Collections From
                      Non-Federal Sources – Undistributed
147     4295.9000     Revaluation of Foreign Currency in the Exchange
                      Stabilization Fund
148     4320.9000     Adjustments for Changes in Prior-Year Allocations
                      of Budgetary Resources
149     4350.4800     Canceled Authority - Undelivered Orders
150     4350.4900     Canceled Authority - Delivered Orders
151     4351.9000     Partial or Early Cancellation of Authority With a
                      U.S. Treasury Warrant
152     4355.9000     Cancellation of Appropriation From Unavailable
                      Receipts
153     4356.9000     Cancellation of Appropriation From Invested
                      Balances
154     4357.9000     Cancellation of Appropriated Amounts Receivable
                      From Invested Trust or Special Funds
155     4390.9000     Appropriations - Transfers-Out
156     4392.0600     Permanent Reduction - New Budget Authority -
                      Undistributed Authority-Undistributed Unobligated
                      Balance
157     4450.0600     Unapportioned Authority - Undistributed
                      Authority-Undistributed Unobligated Balance
158     4510.0600     Apportionments - Undistributed Authority-
                      Undistributed Unobligated Balance




                                61
            DoD
          Reporting
 Count     Account                DoD Reporting Account Title
159      4610.0600    Allotments - Realized Resources - Undistributed
                      Authority-Undistributed Unobligated Balance
160      4650.0610    Allotments - Expired Authority - Undistributed
                      Disbursements
161      4650.9000    Allotments - Expired Authority
162      4901.0700    Delivered Orders - Obligations, Unpaid – Undistributed
163      4902.0700    Delivered Orders - Obligations, Paid – Undistributed
164      4971.0700    Downward Adjustments of Prior-Year Unpaid
                      Delivered Orders - Obligations, Recoveries –
                      Undistributed
165      5100.0300    Revenue From Goods Sold -Sales at Exchange
166      5100.0400    Revenue From Goods Sold -Capitalized Assets
167      5313.9000    Interest Revenue - Subsidy Amortization
168      5324.9000    Contra Revenue for Penalties and Fines
169      5325.9000    Administrative Fees Revenue
170      5640.9000    Forfeiture Revenue - Cash and Cash Equivalents
171      5649.9000    Contra Forfeiture Revenue - Cash and Cash Equivalents
172      5650.9000    Forfeiture Revenue - Forfeitures of Property
173      5659.9000    Contra Forfeiture Revenue - Forfeitures of Property
174      5705.9000    Expended Appropriations - Prior Period Adjustments
                      Due to Corrections of Errors - Years Preceding the Prior
                      Year
175      5720.1200    Financing Sources Transferred In Without
                      Reimbursement – work-in-progress
176      5730.0700    Financing Sources Transferred Out Without
                      Reimbursement-Liabilities Assumed- Used
177      5730.1200    Financing Sources Transferred Out Without
                      Reimbursement- work-in-progress
178      5730.1300    Financing Sources Transferred Out Without
                      Reimbursement - Capital Investment Program
179      5755.1200    Nonexpenditure Financing Sources - Transfers-In-
                      Appropriated Receipts
180      5756.9000    Nonexpenditure Financing Sources - Transfers-In -
                      Capital Transfers




                                  62
           DoD
         Reporting
Count     Account                 DoD Reporting Account Title
181     5765.1200    Nonexpenditure Financing Sources - Transfers-Out -
                     Appropriated Receipts
182     5766.9000    Nonexpenditure Financing Sources - Transfers-Out -
                     Capital Transfers
183     5775.9000    Nonbudgetary Financing Sources Transferred In
184     5776.9000    Nonbudgetary Financing Sources Transferred Out
185     5780.0600    Imputed Financing Sources -Military Retirement
                     Pension
186     5780.0700    Imputed Financing Sources –Military Retirement
                     Health
187     5790.9000    Other Financing Sources
188     5790.9010    Other Financing Sources - No Budgetary Impact
189     5791.9000    Adjustment to Financing Sources - Downward Estimate
                     or Negative Subsidy
190     5792.9000    Financing Sources To Be Transferred Out - Contingent
                     Liability
191     5909.9010    Contra Revenue for Other Revenue - No Budgetary
                     Impact
192     5997.9000    Financing Sources Transferred In From Custodial
                     Statement Collections
193     5998.9000    Custodial Collections Transferred Out to a Treasury
                     Account Symbol Other Than the General Fund of the
                     Treasury
194     6100.0131    Operating Expenses/Program Costs - Judgment Fund-
                     Contract Disputes Act
195     6100.0132    Operating Expenses/Program Costs - Judgment Fund-
                     No FEAR
196     6100.0177    Operating Expenses/Program Costs - Supervision,
                     Inspection, and Overhead Cost Allocation
197     6330.9000    Other Interest Expense
198     6340.9000    Interest Expense Accrued on the Liability for Loan
                     Guarantees
199     6400.0800    Benefits Expense - Personnel Benefits- Federal
                     Employees’ Compensation Act




                                63
             DoD
          Reporting
 Count     Account                DoD Reporting Account Title
200      6500.1653    Cost of Goods Sold - Activity Retention
201      6500.9000    Cost of Goods Sold
202      6730.0600    Imputed Costs-Military Retirement Pension
203      6730.0700    Imputed Costs-Military Retirement Health
204      6790.1011    Other Expenses Not Requiring Budgetary Resources-
                      Operating Materials and Supplies Used
205      6800.0300    Future Funded Expenses - Estimate Subsidy
206      6800.1803    Future Funded Expenses-Judgment Fund- Contract
                      Disputes Act -Insurance Claims and Indemnities
207      6800.1804    Future Funded Expenses-Judgment Fund-No FEAR-
                      Insurance Claims and Indemnities
208      6800.3110    Future Funded Expenses - Actuarial Normal Cost
                      Liability
209      6800.3120    Future Funded Expenses - Actuarial Interest Cost
210      6800.3130    Future Funded Expenses - Actuarial Gain/Loss from
                      Experience
211      6800.3140    Future Funded Expenses - Actuarial Gain/Loss from
                      Trend Assumption Changes
212      6800.3150    Future Funded Expenses - Actuarial Gain/Loss from
                      Other Assumption Changes
213      6800.3160    Future Funded Expenses - Actuarial Plan Amendment
                      Liability
214      6800.3170    Future Funded Expenses - Actuarial Other
215      6800.3180     Future Funded Expenses - Actuarial Benefit Outlay
216      6800.9000     Future Funded Expenses
217      6850.0300     Employer Contributions to Employee Benefit
                       Programs Not Requiring Current-Year Budget
                       Authority (Unobligated)-Unemployment-Military
                       Personnel Benefits
218      6900.1906     Nonproduction Costs-Undistributed
219      6900.1909     Nonproduction Costs-Contract Holdbacks
220      7110.9010     Gains on Disposition of Assets - Other - No Budgetary
                       Impact
221      7171.9000     Gains on Changes in Long-Term Assumptions - From
                       Experience




                                 64
             DoD
          Reporting
 Count     Account                DoD Reporting Account Title
222      7172.9000    Losses on Changes in Long-Term Assumptions - From
                      Experience
223      7180.9010    Unrealized Gains - No Budgetary Impact
224      7190.9010    Other Gains - No Budgetary Impact- Moving Average
                      Cost
225      7210.0010    Losses on Disposition of Assets - Other – Latest
                      Acquisition Cost - No Budgetary Impact
226      7210.9010    Losses on Disposition of Assets - Other - No
                      Budgetary Impact
227      7271.9000    Gains on Changes in Long-Term Assumptions
228      7272.9000    Losses on Changes in Long-Term Assumptions
229      7290.0210    Other Losses-Other Inventory Losses - No Budgetary
                      Impact
230      7290.0300    Other Losses-Shrinkage/Deterioration Losses
231      7290.0310    Other Losses-Shrinkage/Deterioration Losses - No
                      Budgetary Impact
232      7290.0400    Other Losses- Work-in-Progress –Excess
233      7290.0410    Other Losses- Work-in-Progress Excess - No
                      Budgetary Impact
234      7290.0500    Other Losses-Excess/Obsolescence/Spoilage Losses
235      7290.0510    Other Losses-Excess/Obsolescence/Spoilage Losses -
                      No Budgetary Impact
236      7290.0600    Other Losses- Work-in-Process – Shrinkage
237      7290.0610    Other Losses-Work-in-Process Shrinkage - No
                      Budgetary Impact
238      7290.9010    Other Losses - No Budgetary Impact
239      7405.9000    Prior Period Adjustments Due to Corrections of Errors
                      - Years Preceding the Prior Year
240      8101.9000    Partial Authority Cancellation
241      8102.9000    Offset for Partial Authority Cancellation




                                 65
Under Secretary of Defense (Comptroller)/Chief Financial
Officer, DoD Comments




                  Click to add JPEG file




                                   66
Click to add JPEG file




                 67
Click to add JPEG file




                 68
Deputy Chief Management Officer Comments





                Click to add JPEG file




                                 69
Click to add JPEG file




                 70
Click to add JPEG file




                 71
Defense Logistics Agency Comments





                 Click to add JPEG file




                                  72
Click to add JPEG file




                 73
Click to add JPEG file




                 74
